<html>
<title> - THE SECRETARY OF ENERGY'S PRIORITIES AND PLANS FOR DEPARTMENT OF ENERGY NATIONAL SECURITY PROGRAMS</title>
<body><pre>[Senate Hearing 107-420]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-420
 
THE SECRETARY OF ENERGY'S PRIORITIES AND PLANS FOR DEPARTMENT OF ENERGY 
                       NATIONAL SECURITY PROGRAMS 

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 8, 2001

                               __________

         Printed for the use of the Committee on Armed Services

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

78-925 PDF                       WASHINGTON : 2002 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



  














                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

STROM THURMOND, South Carolina       CARL LEVIN, Michigan
JOHN McCAIN, Arizona                 EDWARD M. KENNEDY, Massachusetts
BOB SMITH, New Hampshire             ROBERT C. BYRD, West Virginia
JAMES M. INHOFE, Oklahoma            JOSEPH I. LIEBERMAN, Connecticut
RICK SANTORUM, Pennsylvania          MAX CLELAND, Georgia
PAT ROBERTS, Kansas                  MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado               JACK REED, Rhode Island
TIM HUTCHINSON, Arkansas             DANIEL K. AKAKA, Hawaii
JEFF SESSIONS, Alabama               BILL NELSON, Florida
SUSAN COLLINS, Maine                 E. BENJAMIN NELSON, Nebraska
JIM BUNNING, Kentucky                JEAN CARNAHAN, Missouri
                                     MARK DAYTON, Minnesota

                      Les Brownlee, Staff Director

            David S. Lyles, Staff Director for the Minority

                                  (ii)

  

















                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

The Secretary of Energy's Priorities and Plans for Department of Energy 
                       National Security Programs

                            february 8, 2001

                                                                   Page

Abraham, Hon. Spencer, Secretary of Energy.......................     9

                                 (iii)


THE SECRETARY OF ENERGY'S PRIORITIES AND PLANS FOR DEPARTMENT OF ENERGY 
                       NATIONAL SECURITY PROGRAMS

                              ----------                              


                       THURSDAY, FEBRUARY 8, 2001

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:36 a.m. in room 
SH-216, Hart Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, Inhofe, 
Santorum, Allard, Hutchinson, Collins, Bunning, Levin, Reed, 
Akaka, Bill Nelson, Ben Nelson, and Dayton.
    Committee staff members present: Romie L. Brownlee, staff 
director; Judith A. Ansley, deputy staff director; Anita H. 
Rouse, deputy chief clerk; Scott W. Stucky, general counsel; 
and Roslyne D. Turner, systems administrator.
    Professional staff members present: Charles S. Abell, Mary 
Alice A. Hayward, George W. Lauffer, Paul M. Longsworth, and 
Eric H. Thoemmes.
    Minority staff members present: David S. Lyles, minority 
staff director; Madelyn R. Creedon, minority counsel; and 
Richard W. Fieldhouse, professional staff member.
    Staff assistants present: Kristi M. Freddo, Thomas C. 
Moore, Jennifer L. Naccari, and Michele A. Traficante.
    Committee members' assistants present: George M. Bernier 
III, assistant to Senator Santorum; Robert Alan McCurry, 
assistant to Senator Roberts; Douglas Flanders, assistant to 
Senator Allard; Michael P. Ralsky, assistant to Senator 
Hutchinson; Kristine Fauser and Sam Patten, assistants to 
Senator Collins; Frederick M. Downey, assistant to Senator 
Lieberman; Andrew Vanlandingham, assistant to Senator Cleland; 
Elizabeth King, assistant to Senator Reed; Ross Kawakami, 
assistant to Senator Akaka; Peter A. Contostavios, assistant to 
Senator Bill Nelson; Sheila Murphy, assistant to Senator Ben 
Nelson; Jason Van Wey and Ken Boley, assistants to Senator 
Dayton.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good morning, ladies and gentlemen. Good 
morning, Mr. Secretary, and good morning to your lovely wife. 
We take note that she has come to give you not only moral 
support, but intellectual support.
    Secretary Abraham. That has been going on for a long time, 
sir.
    Chairman Warner. We look forward to your testimony on your 
plans and priorities for the Department of Energy's (DOE) 
national security programs. This committee has oversight and 
indeed jurisdiction over approximately two-thirds of your 
budget. Programs that are devoted to the very important 
security of our Nation and that of our allies.
    I know you have been on the job for a very brief period. We 
talked yesterday, and much of your time has been consumed, 
understandably, with regard to the serious energy problems in 
California and adjoining States.
    I cannot tell you how pleased I am that the President 
selected you. You were a very valued and highly respected 
colleague here for many years. The challenges that are facing 
you are indeed formidable. I would like to raise a number of 
issues with you here today, and my colleagues will join me. You 
may not be able to address all of them. As I said, you can put 
your responses in the record.
    This committee created the National Nuclear Security 
Administration in 1999 to address a disturbing series of 
security and management failures that had been experienced by 
the Department of Energy over a considerable period of time. 
You were part of those debates and the formulation of those 
statutes. Last year we confirmed Gen. John A. Gordon, USAF 
(retired), a very able professional, and as you report there is 
every indication that you will have a harmonious professional 
working relationship.
    I would like to hear your views on how this new entity is 
being established and what steps you have taken to build a 
constructive relationship with General Gordon. You are no doubt 
aware that there are some disagreements in the Congress with 
the previous administration over how this new organization was 
established. My hope is that we can put that debate behind us 
and move forward with the important missions of the NNSA.
    I would also like to discuss your views on the very real 
problem that in this decade DOE may lose a significant 
percentage of its skilled scientists and others in their 
professional capacity who for many, many years as engineers and 
technicians have devoted their careers to making this Nation 
safe. People are at the core of DOE's stockpile stewardship 
programs. You will, I hope, give us your views on that.
    I would like to hear your views also on how we can better 
manage DOE's Russian assistance program. My colleague, the 
distinguished ranking member, Mr. Levin, has spent a great deal 
of time on that subject and I know he shares my interest.
    I would like to discuss how we can step up the pace of 
cleanup of DOE sites. The cleanup program is not, in my 
judgment, making sufficient progress and your views again are 
needed.
    Finally, I would like to discuss the normal degradation 
over time that takes place with almost everything on planet 
earth. Here, I am particularly concerned about the nuclear 
weapons stockpile. We are the preeminent power in terms of not 
only our inventory, but our ability in years past to 
manufacture what we regard as weapons which are safe for 
handling and safe for operational installations, if that 
becomes necessary. Your views on that are essential, and the 
period in which this Nation must bring greater attention and 
focus, frankly, to develop, if it is necessary in the judgment 
of the President, follow-on systems to replace those that are 
being outdated with the passage of time and technology at this 
point.
    So I welcome you again, and I recognize our distinguished 
ranking member, Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Mr. Chairman, thank you and let me join you 
in welcoming our former colleague and our friend to this 
committee.
    You have been there a very short period of time, but you 
are a quick learner, so I know you have soaked in a lot, 
particularly about the California energy crisis. You now know 
probably more than you ever wanted to know, about California 
energy which has not given you a lot of time to review the 
other issues, some of the technical issues which you will face 
that are of particular concern to this committee.
    But we welcome you. We spent some good time chatting about 
some of these issues and this morning gives both you and us an 
opportunity to at least get a general idea as to where you 
think the Department should go in a number of important areas.
    As the Chairman mentioned, the activities, the defense-
funded activities at the Department of Energy, account for over 
two-thirds of the DOE budget, cover a range of programs, from 
cleanup of DOE nuclear sites to maintaining the stockpile in 
the absence of nuclear weapons testing, to important programs 
securing nuclear weapons materials and technology in the states 
of the former Soviet Union.
    One of the most significant challenges facing the 
Department is working with Russia and the states of the former 
Soviet Union to prevent nuclear weapons and materials from 
falling into the hands of terrorists or from being misused. The 
companion piece of this effort is working to help the Russian 
closed nuclear cities improve economically, thus preventing the 
so-called brain drain.
    The Department has made some good progress under 
exceedingly difficult circumstances to bring some new economic 
development to those closed cities. I might add the DOE has 
made some progress in obtaining commitments from Russia the 
close some of their nuclear facilities, including two of their 
nuclear weapons assembly facilities.
    Former Senator Howard Baker's task force report on DOE's 
Russia programs concluded recently: ``The most urgent unmet 
national security threat to the United States today is the 
danger that weapons of mass destruction or weapons-usable 
material in Russia could be stolen and sold to terrorists or 
hostile nation states and used against American troops abroad 
or citizens at home.''
    That is a very important statement and an important finding 
and really quite an extraordinary conclusion, calling the 
potential for weapons of mass destruction to leave Russian soil 
the most urgent unmet national security threat to the United 
States today. Whether or not every member of this committee 
would agree with that assessment, it surely is one of the most 
urgent unmet security threats to our Nation. We would like to 
work closely with you on making sure that the DOE's 
nonproliferation programs are doing everything that they can to 
meet that threat.
    The chairman has made reference to a number of areas of 
concern to this committee, which I will not repeat. I will add 
just two others, one of which he also touched upon. Maintaining 
the nuclear deterrent safely, securely, and reliably in the 
absence of underground nuclear weapons testing is a significant 
responsibility of the DOE. The Secretaries of Defense and 
Energy just completed the annual certification process, 
concluding again that the stockpile remains reliable and that 
there is no need for an underground explosive nuclear test.
    The stockpile stewardship program seems to be successful 
and it is important that we maintain the funding for this 
program as well as the bipartisan support that it needs to both 
build on its successes and continue to ensure the safety and 
reliability of the stockpile, and we look forward to working 
with you on the stockpile stewardship program.
    The size of the future nuclear weapons stockpile is another 
issue which we are going to want to get your views on.
    In conclusion, you have undertaken an extraordinary job, a 
challenging job to say the least, and if the last 2 years are 
any indication, I think we will be seeing a lot of you here at 
the committee. Congratulations on your appointment.
    Secretary Abraham. Thank you.
    Chairman Warner. Thank you, Mr. Levin.
    Given that we are deeply honored to have one of our former 
colleagues before us this morning, we will take a minute or two 
to recognize other Senators who wish to give a personal welcome 
to this distinguished citizen who stepped up to bat once again.
    Senator Inhofe.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Thank you, Mr. Chairman. I will be very 
brief, but, looking around the table here, I think I am the 
only one who was elected with Senator Abraham in 1994. I think 
in our class we all recognize that we have in our new Secretary 
a man truly of great intellect. When I was waiting for the 
decisions to be made by this administration, I have to say 
this: They really kept him under wraps.
    I knew I would see your name somewhere, and it could just 
as well have been in Secretary of Interior, Secretary of the 
Treasury, because, Mr. Chairman, I believe that he could do 
almost any job up there. He has a very deep knowledge of what 
is going on here in Washington and that, combined with his 
integrity, makes him a real find for all of us.
    I have a particular interest, of course, in the energy 
policy coming up and will look forward to working with someone 
in whom I have the utmost respect and admiration.
    Chairman Warner. I thank you, colleague.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you, Mr. Chairman. I too want to 
welcome Senator Abraham, and I look forward to working with him 
as a member of the Strategic Subcommittee, which has a great 
deal of contact with the Department of Energy.
    Spencer has dedicated his life to public service and this 
is another chapter in that life of dedication. I am looking 
forward to working with you, Senator.
    Chairman Warner. I thank you, colleague.
    Senator Allard, do you have any welcoming remarks for our 
colleague?

               STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Mr. Chairman, I do have some remarks. I 
would like to submit them for the record.
    Chairman Warner. Thank you very much.
    Senator Allard. I would just welcome my good friend, the 
Secretary of Energy Spencer Abraham, and would just relate to 
the committee that I look forward to working with him as we 
move forward during the session. Obviously, national security 
is very important to the subcommittee that I chair, the 
Strategic Subcommittee, and the ranking member on that I 
understand will be Senator Reed from Rhode Island.
    So we do look forward to working with you. In fact, about 
two-thirds of DOE's budget falls under the authorization of our 
subcommittee. We have got some big issues there as far as 
security, and I think that you are the man for the job and I 
look forward to working with you on it.
    [The prepared statement of Senator Allard follows:]
               Prepared Statement by Senator Wayne Allard
    Mr. Chairman, I want to thank you and Senator Levin for having this 
important hearing regarding the priorities of the Department of Energy 
national security programs.
    I also thank Senator Landrieu for her past work as the Ranking 
Democrat on the Subcommittee, and welcome Senator Reed as the new 
ranking Democrat. Senator Reed and I are going to get to know each 
other very well this Congress because he is also the Ranking Democrat 
on the Banking Subcommittee I chair.
    Secretary Abraham, welcome to the committee and I look forward to 
hearing your views on these important programs.
    The Strategic Subcommittee, which I have the privilege to chair, is 
responsible for authorizing over two-thirds of the Department of 
Energy's budget. A large share of the programs we oversee are in the 
National Nuclear Security Administration (NNSA). These programs are 
vital to the our Nation and our allies.
    These important missions include--ensuring that the nuclear 
stockpile is safe and reliable in the absence of underground testing; 
ensuring that Navy warships have safe and militarily effective nuclear 
propulsion plants to meet today's and tomorrow's ever increasing 
deployment demands; and ensuring that the surplus fissile materials do 
not fall into the wrong hands.
    A matter of tremendous importance and a priority for me are our 
environmental management program. We all realize that it took us more 
than 50 years to create the environmental problems of the Department of 
Energy, and these problems will take a coherent policy of innovation, 
integration, and funding to overcome.
    However, while progress is being made, we should be doing better. 
Closure is more than an end-state, but a state of commitment and 
purpose for the Department. This mentality of closing sites must come 
from the top. We all must push these sites to come up with plans for 
closure for the longer we wait the more dangerous it becomes.
    Also, the funding levels for the environmental management science 
and technology programs continue to decline. Last year's budget request 
for technology development was the lowest in 8 years. This is 
especially critical when innovative cleanup techniques are becoming 
more reliant on these new technologies.
    Another area of concern is the slow pace of re-establishing pit 
manufacturing and tritium production. Our aging weapons plants are in 
dire need of repair and there is no long-term plan for modernizing 
these essential production facilities.
    With respect to the detoriating infrastructure, our national labs 
and manufacturing plants are struggling to maintain critical skills and 
expertise. We need to do more to recruit the highest caliber people for 
these essential jobs. These scientists do the ``cutting-edge'' and most 
advanced research any where in the world.
    Let me end with what must be the Department's number one priority--
our national security. During the last few years, DOE seems to have had 
a major problem securing our nation's secrets. Mr. Secretary, I know 
you will be working closely with General Gordon in addressing any 
deficiencies and lapses in security. However, I can only speak for 
myself, but if these lapses continue, I will be as critical and tough 
as in the past.
    Mr. Secretary, we all know that you have a tremendous job ahead of 
you and I look forward to working with you on all these issues.
    Again Mr. Chairman, thank you for having this hearing.

    Chairman Warner. Senator Akaka, I certainly welcome you as 
a member of our committee.

              STATEMENT OF SENATOR DANIEL K. AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman.
    Mr. Secretary, Spence Abraham and Jane, I welcome you here 
to the U.S. Senate this morning. I look forward to hearing from 
you and discussing with you the national security programs of 
the Department of Energy. I appreciate your pledge to work with 
us on the implementation of these programs.
    As a member of the Senate Committee on Energy and Natural 
Resources as well as this committee, I am confident that we 
will work very closely together on the many challenges facing 
the Department of Energy. I look forward to working with you 
and congratulate you and wish you and your family well.
    Thank you, Mr. Chairman.
    Chairman Warner. I thank the Senator.
    Senator Hutchinson.

              STATEMENT OF SENATOR TIM HUTCHINSON

    Senator Hutchinson. Spence, let me join my colleagues in 
welcoming you back and in expressing our pleasure at your 
appointment as Secretary of Energy. I, like my colleague from 
Oklahoma, believe that you could have filled a lot of roles, a 
lot of positions, and done it very, very well in the new 
administration. But you, never being one to shy away from 
controversy, have gone from the frying pan into the fire by 
going to the Department of Energy. They have probably the 
hottest issues facing our country. While I know the Department 
of Energy does not produce any energy over there, it makes sure 
the lights stay on, and I know you will. We are so pleased that 
you are there and look forward to working with you in the 
coming years.
    Chairman Warner. Thank you. Senator Nelson, we welcome you 
to our committee.

                STATEMENT OF SENATOR BILL NELSON

    Senator Bill Nelson. Mr. Secretary, Senator--once a 
Senator, always a Senator--I am looking forward to getting to 
know you. What Senator Levin spoke about on the proliferation 
of nuclear materials, particularly in the former Soviet Union, 
is of particular concern to me and I look forward to working 
with you.
    Chairman Warner. I thank you.
    We welcome our distinguished colleague from Maine, Senator 
Collins.

               STATEMENT OF SENATOR SUSAN COLLINS

    Senator Collins. Thank you, Mr. Chairman. Mr. Chairman, I 
do have an opening statement that I would ask unanimous consent 
be put in the record.
    Chairman Warner. Without objection, it will appear in the 
record.
    Senator Collins. I do want to welcome one of my favorite 
former colleagues to the committee. I very much look forward to 
working with Secretary Abraham. I am delighted to see his wife 
Jane is here as well.
    We are very fortunate that our new President has tapped the 
tremendous talents and expertise and intelligence of Spence 
Abraham. I am sure he is going to do a superb job as Secretary 
of Energy, and I look forward to working with him in that 
capacity.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Collins follows:]
              Prepared Statement by Senator Susan Collins
    Mr. Chairman, it is always a pleasure to see a distinguished former 
colleague in such an esteemed position critical in maintaining our 
nation's national security.
    Because the Department of Energy has jurisdiction over a wide range 
of critical activities such as safeguarding our nuclear weapons, 
combating proliferation, assisting the Navy with its work on nuclear 
propulsion systems, and environmental restoration and management, this 
committee has a keen interest in hearing about the Secretary's 
priorities and strategies when it comes to the DOE's performance as it 
relates to defense. Having recently served in the Senate, this 
Secretary is well aware of the concerns all of us on this panel share 
and will do his utmost to keep us informed of his activities that bear 
significantly on the jurisdiction of this committee.
    The management and implementation of the relatively new National 
Nuclear Security Administration and its management, oversight and 
security has raised issues and concerns among many of the members, 
myself included. Having voted as a Senator for the National Defense 
Authorization Act that called for the NNSA's creation, I trust that 
this Secretary will be vigorous in ensuring that it serves the ends for 
which it was established.
    The issue of nonproliferation has received a lot of attention with 
the recent release of the Baker-Cutler report on the DOE's programs 
with Russia aimed at countering the proliferation of nuclear materials. 
An earlier GAO report, published in March 2000, highlighted the limited 
progress achieved in improving nuclear material security in Russia and 
the Newly Independent States; however, some experts believe current 
U.S. nonproliferation programs are inadequate to meet the threat of 
proliferation of nuclear materials and expertise.
    Also significant is DOE's growing role in environmental restoration 
and management. Strong leadership, vigilance and thoroughness are 
required in this area, and it is my strong hope that this Secretary 
will set new standards for excellence in the pursuit of DOE's 
environmental mission.
    My expectation is that this hearing will serve as a means to share 
ideas and encourage action to ensure our priorities and plans for 
national security programs are fully commensurate with the challenges 
and threats we face today. I hope and trust the Secretary agrees that 
it is not enough to be content with the status quo and that great 
strides must be made under his leadership to simultaneously strengthen 
the DOE's ability to perform its vital national security functions, but 
also to take its mission to the next level.
    I look forward to hearing Secretary Abraham's approach to these 
issues I have raised because I have no doubt that they will confront 
the Department of Energy and its stakeholders during this 
administration.
    I would also like to congratulate the Secretary on his new position 
and say that I look forward to working with him in the years ahead. 
Thank you, Mr. Chairman.

    Chairman Warner. Thank you.
    Senator Ben Nelson, we welcome you to the committee.

                STATEMENT OF SENATOR BEN NELSON

    Senator Ben Nelson. Thank you, Mr. Chairman.
    Welcome. You will find, as I do, that people will be 
calling you different things. Sometimes it will be Senator, 
sometimes it will be Mr. Secretary. So I welcome you, and I 
look forward to working with you.
    I, too, am concerned about the Russian warheads that need 
to be maintained with the highest degree of security and want 
to urge that you make that one of the highest, if not the 
highest, priorities as it relates to your job with armed 
services issues, that we maintain the highest level of security 
and assurance to the American public and perhaps to the world 
as well that those armaments will not end up in the wrong 
hands. So I look forward to working with you on that, and good 
luck, of course.
    Secretary Abraham. Thank you.
    Chairman Warner. Senator Bunning.

                STATEMENT OF SENATOR JIM BUNNING

    Senator Bunning. Thank you, Mr. Chairman. I also would like 
to have permission to enter an opening statement into the 
record.
    Chairman Warner. Without objection. Thank you.
    Senator Bunning. I have known Spence an awfully long time. 
We served on the national committee together when he was the 
chairman of the Michigan Republican Party, so we go back a long 
time. I know he will do a great job.
    Your plate is full. You have problems in New Mexico, you 
have problems in California, you have problems in securing our 
nuclear weapons and the secrets that walk out the door somehow 
undetected. You have problems maintaining our stockpile of 
uranium, enriched uranium. So you are going to need all the 
talents that God gave you in this current job, and I wish you 
godspeed.
    [The prepared statement of Senator Bunning follows:]
               Prepared Statement by Senator Jim Bunning
    Mr. Chairman, I welcome Secretary Abraham to the committee and 
would like to congratulate him on his new position. I know Spence and 
Jane as friends and colleagues and believe that he will uphold this 
position with honor and dignity.
    During the last session of Congress, I served on the Energy and 
Natural Resources Committee where we conducted a number of hearings 
investigating the theft of our most sacred national defense secrets.
    Unfortunately, due to a lack of attention by a number of energy 
secretaries, and an unprofessional and pathetic investigation by the 
Department of Justice, it seems as though the People's Republic of 
China is now in possession of classified information on every one of 
our thermonuclear warheads.
    Under the last administration, the Department of Energy nuclear 
labs became a revolving door, with billions of tax dollars going in for 
research and development, and the blueprints for the world's deadliest 
weapons are on the way out the door.
    Mr. Secretary, you have a very difficult task ahead of you, but I 
believe with the creation of the National Nuclear Security 
Administration this job will be manageable.
    While the Clinton administration tried to push their mistakes under 
the rug, I expect that you will keep us fully informed of any 
inappropriate behavior at our nuclear labs.
    If a top-secret lap top computer is missing, we want to know about 
it. We are here to help, but we need to know that a problem exists in 
order to do so.
    Finally, I would like to comment briefly on the state of our 
Nation's domestic uranium supply. Without the work being conducted at 
the Paducah, Kentucky, Uranium Enrichment Plant. We wouldn't have any 
nuclear bombs.
    The men and women that work at this plant have for the last 50 
years have been the silent victors of the Cold War, and while their 
work has gone unnoticed by most of the country, they remain a priority 
of mine. The Department of Energy must fully review the current supply 
of our uranium stockpiles, and thoroughly research the way we are 
implementing the ``highly enriched uranium'' deal we have with the 
Russians. The future of the Paducah Plant depends on it.
    Mr. Chairman, I would like to again thank you for calling this 
hearing, and look forward to listening to our new Energy Secretary's 
comments. Also, I would like to submit some questions for the Secretary 
to respond to at a later time.
    Thank you.

    Chairman Warner. Thank you very much, Senator. I am sure 
you will be throwing some fastballs across that plate before 
too long.
    Senator Bunning. Not to Spence. He will catch them.
    Chairman Warner. You are on your own, Mr. Secretary.

     STATEMENT OF HON. SPENCER ABRAHAM, SECRETARY OF ENERGY

    Secretary Abraham. Mr. Chairman, thank you. I want to thank 
you and Senator Levin for being so courteous to offer us a 
chance to have an early hearing and for the time you both gave 
me in the last day or so to stop by and begin our discussions, 
which will obviously continue well into the future.
    I also want to just thank all of the committee members, 
most of whom are former colleagues, a couple who I have known 
in other roles before they got to the Senate, but in whom I 
have the highest respect. I want to say to all of you, thank 
you. I do look forward to working with this committee to make 
sure that we have the kind of strong working relationship that 
I think is important to address all these various issues.
    I will do my best on a day-to-day basis in the Department, 
but clearly when one comes from the Senate, from the Congress, 
to the administration, to the executive branch, one I think 
probably brings the kind of experience that will ensure that 
there is the kind of cooperation and dialogue that I think will 
help us to address some of these issues as effectively as we 
can.
    Obviously, having been on the job less than 3 weeks, I am 
not totally prepared to answer any question that you might send 
my way. But if it does not have to do with the California 
energy crisis, I may have to take one or two for the record, 
even perhaps on that issue.
    But as you all know and as has been said in the comments 
several of you have made today, more than two-thirds of the 
Department of Energy's budget is funded from defense accounts, 
and this committee's oversight and authorization 
responsibilities extend well into the Department on a variety 
of fronts. The Department supports our national security in 
many critical areas, including maintaining our enduring nuclear 
deterrent, mitigating the proliferation of nuclear weapons, 
fiscal materials, and weapons expertise, providing the Navy 
with effective nuclear propulsion systems, and of course 
cleaning up the legacy of more than 50 years of nuclear weapons 
production.
    I just want to say at the outset that I really do intend to 
work with each of you to ensure that these programs are 
successful and that they continue to support the National 
security interests of the United States. Let me just begin by 
taking a moment to briefly discuss my views on each of these 
areas, starting with the programs of the National Nuclear 
Security Administration.
    First, I would say that I fully supported the establishment 
of the NNSA when it was introduced in the Senate and continue 
to support it today. I voted for the Domenici-Kyl amendment 
which created the NNSA and General Gordon and I have already 
established a productive working partnership, which I am 
confident can help us to move that program forward as we 
intended it to be moved forward and as I think we expect it to 
perform.
    Let me just talk about a couple of specific areas. First 
our weapons programs. As I stated during my confirmation 
hearing a couple of weeks ago in the Energy Committee, the most 
sobering and important responsibility vested in the Secretary 
of Energy in my judgment is the duty to certify to the 
President each year that the United States nuclear arsenal is 
safe, secure, and reliable. I can assure the members of this 
committee that nothing I do will be higher on my priority list 
than ensuring the safety and security of our nuclear deterrent.
    The DOE weapons program is continuing to implement new 
methods of certifying the safety, the reliability, and the 
effectiveness of our nuclear warheads in the absence of 
underground nuclear testing. This requires expensive and 
technically complex new experimental facilities and 
capabilities. Not all of these facilities and capabilities are 
operational yet, but the Department is continuing to make 
progress in this area.
    I believe we must establish these new facilities and 
capabilities as rapidly as possible. I believe that we would 
want to pursue most of these new capabilities even if we were 
in a testing environment. I hope to work with you and the other 
members of Congress in the coming months to ensure that these 
programs are adequately funded and supported.
    In addition to establishing these new science-based 
certification tools, DOE is also in the process of evaluating 
our critical production capabilities, such as tritium gas 
production, uranium processing, and plutonium pit production. 
Again, these capabilities may require expensive new facilities 
and technologies in the future, and I hope to work with you to 
ensure that any need which we may have is successfully met.
    The second area, of course, is nonproliferation programs. 
The Department also plays a critical role in threat reduction 
by addressing the challenge of nuclear weapons proliferation. 
Obviously, this Nation has an acute interest in accounting for 
and preventing the spread of nuclear weapons materials, 
technology, and expertise. The Department has had many past 
successes in this area and I believe that, working with you, we 
can continue these efforts.
    I believe that the recent Baker-Cutler report which Senator 
Levin alluded to in his comments will serve as a useful tool to 
help frame the debate on these critical issues, and I look 
forward to working with you to address these challenges.
    The naval reactors programs is an area of the Department 
that is running exceptionally well. In my opinion, the old 
adage that if it is not broke do not try to fix it applies 
here. I have great confidence that Admiral Bowman and his staff 
will continue the tradition of excellence that has marked this 
program since it was established by Admiral Rickover in the 
1940s.
    Another area of responsibility for the Department is 
environmental management. The Department has the unenviable 
responsibility of cleaning up and managing the waste generated 
during more than 50 years of nuclear weapons production. These 
problems obviously were not created overnight and certainly we 
are not going to dispense with them quickly or easily. But I 
think we can do a better job.
    I plan to examine DOE's cleanup program to try to identify 
those areas where we can make better progress in cleaning up 
and closing excess facilities and sites. I plan to work closely 
with you, the other members of Congress, and also with the 
States and local communities that host these sites to try to 
find ways to accelerate the pace of cleanup. By working to 
reduce overhead costs, I think we can free up more funds for 
accelerating the cleanup process.
    There are many other challenges facing the Department. 
Improving security will be a high priority of mine. I intend to 
work with General Gordon and the other DOE program offices to 
ensure that the Department's senior managers are fully engaged 
in improving security at all of our sites, not just the 
National laboratories.
    Maintaining the Department's unique and critical skills 
will also be a top priority of mine. People are the Department 
of Energy's most valuable assets. Yet we know that many 
production facilities are just one engineer deep in essential 
manufacturing areas and many labs are at risk of losing their 
highly trained scientists and engineers to more attractive 
employment opportunities. In addition, the average workforce 
age at sites such as Pantex and Y-12 is well over 50 years of 
age.
    These are very troubling trends that I believe have to be 
addressed. I recently spoke to former Senator Kempthorne, who 
was a member of this committee, about the Chiles Commission 
report which was initiated during his time on the committee, 
and I intend to take a close look at the commission's 
recommendations to ensure that we are taking steps to maintain 
DOE's most valuable commodity, its highly trained workforce.
    Finally, we must find a way to recapitalize DOE's aging 
infrastructure. DOE has allowed its nuclear weapons production 
plants to degrade over time, leaving a tremendous backlog of 
deferred maintenance and modernization. The deterioration of 
existing facilities is a very serious threat to DOE's mission 
readiness. Some have projected the backlog to be as high as 
several billion dollars. I believe we must begin to address 
this problem and I would ask for the committee's support in 
this area.
    In closing, let me just say again that I am extremely 
honored that President Bush has chosen me for this position. 
The missions of the Department are vital to our national 
interests. Again, I pledge to work with the members of this 
committee and others in Congress to carry out these missions to 
the very best of my abilities and in the best interests of the 
American people.
    Mr. Chairman, thank you very much.
    [The prepared statement of Secretary Spencer Abraham 
follows:]
            Prepared Statement by Secretary Spencer Abraham
    Mr. Chairman, Senator Levin, and Members of the Committee, it is a 
privilege to appear before you today. I want to thank you for providing 
me with this opportunity to discuss the important national security 
programs on the Department of Energy.
    Having been on the job less than 3 weeks now, I am certain that I 
will be able to answer all of your detailed questions with great ease.
    As each of you are intimately aware, more than two-thirds of the 
Department of Energy's budget is funded from defense accounts. The 
Department supports our national security in many critical areas, 
including: (1) maintaining our enduring nuclear deterrent; (2) 
mitigating the proliferation of nuclear weapons, fissile materials, and 
weapons expertise; (3) providing the Navy with effective nuclear 
propulsion systems; and (4) cleaning up the legacy of more than 50 
years of nuclear weapons production.
    I wish to say at the outset that I intend to work with each of you 
to ensure that these programs are successful and that they continue to 
support the national security interests of the United States.
    Let me begin by taking a moment to briefly discuss my views on each 
of these areas, starting with the programs of the National Nuclear 
Security Administration.
    First, I will say that I fully supported the establishment of the 
NNSA when I was in the Senate and continue to support it today. I voted 
for the Domenici-Kyl amendment and for the Defense Authorization Act 
which created the NNSA. General Gordon and I have established a very 
productive working partnership and I am confident that this new entity 
will be successful.
                            weapons programs
    As I stated during my confirmation hearing only 3 weeks ago, the 
most sobering and important responsibility vested in the Secretary of 
Energy is the duty to certify to the President each year that the U.S. 
nuclear arsenal is safe, secure and reliable.
    I can assure the members of this Committee that nothing I do will 
be higher on my priority list than ensuring the safety and security of 
our nuclear deterrent.
    The DOE weapons program is continuing to implement new methods of 
certifying the safety, reliability, and effectiveness of U.S. nuclear 
warheads in the absence of underground nuclear testing. This requires 
expensive and technically complex new experimental facilities and 
capabilities. Not all of these facilities and capabilities are 
operational yet, but the Department is continuing to make progress in 
this area. We must establish these new facilities and capabilities as 
rapidly as possible.
    I believe that we would want to pursue most of these new 
capabilities even if we were in a testing environment. I hope to work 
with you and the other members of Congress in the coming months to 
ensure that these programs are adequately funded and supported.
    In addition to establishing these new science-based certification 
tools, DOE is also in the process of evaluating our critical production 
capabilities--such as tritium gas production, uranium processing, and 
plutonium pit production. Again, these capabilities may require 
expensive, new facilities and technologies and in the future, I hope to 
work with you to ensure that any need which we may have are 
successfully met.
                       nonproliferation programs
    The Department also plays a critical role in threat reduction, by 
addressing the challenge of nuclear weapons proliferation. This nation 
has an acute interest in accounting for and preventing the spread of 
nuclear weapons materials, technology, and expertise. The Department 
has had many past successes in this arena and--working with you--I will 
continue those efforts.
    I believe that the recent Baker-Cutler report will serve as a 
useful tool to help frame the debate on these critical issues, and I 
look forward to working with you to address these challenges.
                        naval reactors programs
    This is an area of the Department that is running exceptionally 
well. In my opinion, the old adage--``if it isn't broken, don't try to 
fix it''--applies here. I have great confidence that Admiral Bowman and 
his staff will continue the tradition of excellence that has marked 
this program since it was established by Admiral Hyman Rickover in the 
1940s.
                        environmental management
    The Department also has the unenviable responsibility of cleaning 
up and managing the wastes generated during more than 50 years of 
nuclear weapons production. These problems were not created overnight 
and certainly we are not going to dispense with them quickly or easily. 
But, we can do a better job.
    I plan to examine DOE's cleanup program and identify those areas 
where we can make better progress in cleaning up and closing excess 
facilities and sites. I plan to work closely with you, the other 
Members of Congress, and also with the States and local communities 
that host these sites, to find ways to accelerate the pace of cleanup. 
By working to reduce overhead costs, I feel we can free up more funds 
for accelerated cleanup.
                            other challenges
    There are many other challenges facing the Department.
    Improving security will be a very high priority of mine. I intend 
to work with General Gordon and the other DOE program offices to ensure 
that the Department's senior managers are fully engaged in improving 
security at all of our sites, not just the National laboratories.
    Maintaining the Department's unique and critical skills will also 
be a top priority of mine. People are DOE's most valuable asset. Yet, 
we know that many production facilities are one engineer deep in 
essential manufacturing areas and many labs are at risk of losing their 
highly trained scientists and engineers to more attractive employment 
opportunities. In addition, the average workforce age at sites such as 
Pantex and Y-12 is well over 50 years old.
    These are very troubling trends that must be addressed. I have 
spoken to former Senator Kempthorne about the Chiles Commission report, 
and I intend to take a close look at the Commission's recommendations 
to ensure that we are taking steps to maintain DOE's most valuable 
commodity--its highly trained workforce.
    Finally, we must find a way to recapitalize DOE's aging 
infrastructure. DOE has allowed its nuclear weapons production plants 
to degrade in recent years, leaving a tremendous backlog of deferred 
maintenance and modernization. The deterioration of existing facilities 
is a very serious threat to DOE's mission readiness. Some have 
projected the backlog to be as high as several billion dollars. We must 
begin to address this problem and I would ask for your support in this 
area.
                                closing
    In closing, let me say again that I am extremely honored that 
President Bush has chosen me for this position. The missions of the 
Department are vital to our national interests.
    I pledge to work with the members of this Committee and others in 
Congress to carry out these missions to the best of my abilities and in 
the best interests of the American people.
    Thank you.

    Chairman Warner. Thank you very much, my colleague, Mr. 
Secretary. I had the privilege of introducing your wife. Would 
you like to introduce others who are with you this morning?
    Secretary Abraham. Well, there is a good group of folks who 
have been helping me during the confirmation process here. I 
just would acknowledge all of them together here. We have Henry 
Gandy and Frances Norris, Ted Garrish, Michael Whatley, Joe 
Davis, and Jason Van Buren, who are here along with my wife 
Jane. I appreciate the help they and others have provided me in 
preparing both for this hearing and getting started at the 
Department.
    Chairman Warner. Now, Mr. Secretary, in the course of the 
Senate's advice and consent review of the Comprehensive Test 
Ban Treaty, this committee initiated a series of three very 
thorough hearings regarding the present and future status of 
our nuclear stockpile. This was one of the more memorable 
chapters of this committee that I have been privileged to serve 
on in these 23 years. Those hearings went on for 3 consecutive 
days.
    The distinguished directors of our laboratories, in whom we 
place the trust to make periodic evaluations of our inventory, 
gave their testimony and that testimony was, in true fashion, 
professional and not political. I feel that it was this 
absolute bedrock of fact that directed the Senate not to give 
its advice and consent on that treaty at that time, because in 
their professional opinion they could not give the assurance to 
the committee, and indeed the Senate as a whole and to the 
country of a timetable within which this Nation could complete 
the design and installation of a series of technical, very 
complicated devices, largely computers, which would provide a 
substitute for live testing, our Nation having decided not, 
under previous presidents, to continue live testing.
    I am in no way suggesting by this question that our 
President has spoken one way or another on this issue. This is 
simply this Senator's concern that I am expressing in this 
question.
    As a consequence of their inability to give us what I 
believe was some very specific parameters regarding the ability 
to substitute for live testing, the Senate decided not to 
accept the treaty. That was one of the main reasons. Can you 
give us an update with regard to the current evaluation of 
these very distinguished laboratory directors, all of whom will 
eventually come before this committee, but just a sort of 
synopsis--presumably you have consulted with them--a current 
synopsis of what they feel is the status of that program today? 
Is it adequately funded? Does it require redirection, either 
legislatively or by the President and yourself?
    Secretary Abraham. Mr. Chairman, I would first indicate I 
have only had a chance to have extensive discussions with one 
of the lab directors to this point. I am looking forward to 
visiting all of the facilities, of course, in my first months 
in this job and to have the opportunity to speak in greater 
detail with each of them.
    I was a member of the Senate when the treaty was rejected 
and voted no on that occasion. Obviously, a lot of concerns 
were raised with respect to issues that had to do with 
verification as well as exactly where and how long it would be 
before we could be comfortable with certification in the 
absence of a testing environment.
    But the President in his campaign and since has made it 
clear that he intends to continue the moratorium, and we are 
committed at the Department to trying to move forward on the 
various science-based stockpile stewardship programs that will 
give us as much information as we can acquire through them to 
be able to certify the safety, security, and reliability of the 
stockpile.
    My views are these. Clearly, we know that the lab directors 
and others have said that it will take some time before we can 
be certain that science-based testing separate from actual 
testing will work. The time frame that they have indicated to 
me is a time frame that could be as short as 6 years and 
perhaps as long as 20 before we could reach any kind of 
certainty with regard to the ability of our science-based 
programs to give us the certification confidence--full 
confidence--that we require for the future.
    But I think that the results of the most recent process, 
which was just completed in January, enjoys the full confidence 
of the lab directors and the certification that just took place 
by my predecessor and the immediate past Secretary of Defense, 
another of our former colleagues, is one that I have high 
confidence in.
    Chairman Warner. Well, I thank you. At an appropriate time, 
I would appreciate it if you would notify me and the ranking 
member that you are prepared to supplement your testimony today 
after you have had a chance to meet personally and make an 
evaluation. I want this question to be periodically updated in 
the response by yourself and the Department.
    Secretary Abraham. I would be glad to do it and it is 
certainly something I would intend to revisit on a regular 
basis as well, because clearly we want to maintain as close a 
sort of scrutiny of the development of these technologies as we 
can. Obviously, some are going to take some time to be on the 
line, but the efforts continue and are a top priority.
    Chairman Warner. In that context, I would like also to have 
received from you your evaluation of where the United States is 
today and where in your judgment and that of the President it 
should be in the future regarding the investment of dollars in 
research and perhaps future development of a new series, if 
that is necessary, of weapons, nuclear weapons. My 
understanding is very little is being done on that under the 
previous administration and it is my hope and expectation that 
this administration will begin to review the stockpile and the 
normal period of time within which these weapons have to be 
replaced.
    Can you comment on it now?
    Secretary Abraham. Well, I will certainly be happy to keep 
the committee informed as to evaluations that are made. The 
Secretary of Defense and I are called upon to begin that kind 
of process of evaluation. I think the last one might have been 
done in 1994, 1995, 1996, in that range. But I would just point 
out that these decisions would be ones that are primarily 
driven by the Defense Department in terms of strategic issues 
such as the size and composition of our stockpile.
    Obviously, the technical issues and the capacity to develop 
or modify systems are ones that the Department of Energy plays 
a more specific leadership role in. I think this opens a 
question that we will want to continue to focus on. That is our 
capacities to both maintain the existing stockpile and consider 
any changes that might be on a strategic basis called for in 
the future.
    This goes back to the issues that were raised by several 
folks in the opening statements and that I alluded to as well, 
and it goes to the questions of the skill retention, of the 
talents that we will need to both maintain the current 
stockpile and make any future changes that would be called 
upon.
    As I mentioned, the average age of the workforce of the top 
people we have is approaching 50 years of age. Since I am 
approaching 50 years of age, that does not seem like it is all 
that old to me, but it is still something that we have to 
monitor and have to address. Obviously, we want to make sure 
that we continue to be able to attract the best and the 
brightest to our facilities.
    We also have to make sure that those facilities are in good 
shape. As I mentioned in my comments, I have concerns about the 
infrastructure that has been allowed perhaps to decline in 
terms of its capacity to actually house the programs which need 
to be performed in the various laboratories and assembly 
plants. We will be doing a very strong evaluation of each of 
those in conjunction with the NNSA in the months ahead.
    Chairman Warner. I thank you very much for that reassuring 
response.
    We will have 6 minutes for questions in our first round. My 
6 minutes are up, Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    First, the Cooperative Threat Reduction (CTR) Programs will 
you support these programs?
    Secretary Abraham. Yes, I will, as I indicated to you. I 
think that as we look at our strategic challenges in the 
future, at least in part we recognize that one of the 
challenges we have when it comes to America's security is of 
dealing with the possibility that others who do not currently 
have a nuclear capability might get one of them and that such a 
nuclear capability might be acquired by people who have either 
an immediate or a possible interest in doing harm to America.
    That forces us, I think, to focus on MPC&A (materials 
protection, control and accounting) and CTR and on the various 
programs that have developed to try to address 
nonproliferation.
    Senator Levin. The task force, which was co-chaired by 
Howard Baker, reached the finding and conclusion that I read 
before about the nonproliferation programs achieving impressive 
results, but that their limited mandate and funding fall far 
short of what is required to adequately address the threat, the 
proliferation threat, which they indicate is the number one 
threat to our security.
    Do you in general support the findings and conclusions of 
that report?
    Secretary Abraham. I take the threat very seriously. I have 
not had a chance to actually meet with Senator Baker or Lloyd 
Cutler, but the members who are part of the Secretary of 
Energy's advisory board that have joined in support of that are 
people whose opinions I respect greatly.
    Certainly if you look at the range of programs that are 
part of the nonproliferation component of the Department--from 
the programs, the MPC&A programs to the programs that we have 
talked about with regard to initiatives for proliferation 
prevention, the nuclear cities program, the programs designed 
to try to acquire and to dispose of plutonium and highly 
enriched uranium--these are very costly programs.
    So while I have not had a chance to evaluate the projected 
costs that were referred to by the Baker Commission's study in 
detail, I know that all of these programs, carried out to their 
fullest extent, will have a very substantial price tag. 
Obviously, that is part of what we will be evaluating in the 
Department.
    Senator Levin. Will you, after you have had a chance to 
review that report, let this committee know what parts of it, 
if any, you do not agree with?
    Secretary Abraham. I will be glad to.
    Senator Levin. On the stockpile stewardship program (SSP), 
without getting into the pros and cons of the Comprehensive 
Test Ban Treaty, there is no current requirement to resume 
testing. There is a moratorium, as you have indicated. I 
disagree with our chairman as to the reason why that treaty was 
defeated at the time that it was. Actually, there were many 
more Senators who had urged that we not even vote on that 
treaty at that time until there was a greater opportunity for 
further hearings into the treaty than there were Senators who 
voted against the treaty itself. So there was a strong 
bipartisan feeling here that we should not have voted on the 
treaty when we voted on the treaty, because of a number of 
factors, including its importance. I think there were 62 of us 
who signed the letter to the Majority Leader urging that the 
treaty not be voted on at the time that it was, but that the 
vote be delayed.
    My question is this, however. Going back to the chairman's 
comments about the lab directors, their testimony was that they 
could not give us assurance that testing would never be 
necessary. I think that was solid advice. That is the reason 
why the treaty itself had a supreme national interest clause in 
it and why the ratification resolution itself had a provision 
that if testing ever became necessary to assure the safety and 
reliability of our stockpile that, in fact, we would use that 
supreme national interest provision and withdraw from the 
treaty. That was actually there to address the point, the very 
important point that the directors of the labs made, that they 
could not assure forever that testing would never be necessary.
    My only request to you in this area would be the following, 
that you would study that testimony, as well as discuss this 
whole issue with the lab directors. The Secretary of State, our 
current Secretary of State, supports the Comprehensive Test Ban 
Treaty. I would hope that before you reach your own conclusion 
on whatever new material you gather, current material on this 
subject, that you would include discussions with Secretary 
Powell on the Comprehensive Test Ban Treaty. That would be my 
only request to you, is that you include him in those 
discussions.
    Are you able to give us that assurance?
    Secretary Abraham. I would be happy to. I also would give 
the committee the assurance that we at the Department, one of 
the priorities that General Gordon and I have already talked 
about is to move forward with the new science based stockpile 
stewardship programs because, as I indicated, the President has 
made it clear that he has no intention of departing from the 
moratorium on testing. So that gives us all the more, I think, 
incentive and need to continue to move forward with the science 
based programs which are being developed.
    Senator Levin. Thank you.
    My time is up. Thank you.
    Chairman Warner. Thank you.
    My good friend the ranking member and I came to the Senate 
together 23 years ago and we have worked together as strong 
partners. But every now and then we have to clarify the issue a 
little bit. That letter of 62 signatures happened to be a 
Warner-Moynihan initiative. I remember that.
    Senator Levin. Very welcome, too.
    Chairman Warner. You will also recall that it was a 
colleague on your side that required the leadership to push 
that treaty to the floor for perhaps premature consideration.
    Senator Levin. I do agree.
    Chairman Warner. Just a minor point, my friend.
    Senator Levin. No, it is a very important point. Premature 
it was.
    Chairman Warner. That is right.
    Now we have Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. We have 6-minute 
rounds and, with the number of members, I will not be able to 
be here for a second. So I am going to try to get this through 
real quick.
    You are having two hearings because the first, of course, 
deals with energy policy, and I know you have already had that, 
this one with national security. But I suggest there are some 
places where they overlap. I can remember, Spence, back in 1987 
when I was in the House, Don Hodel was Secretary of Interior, 
and we had this little dog and pony show where we would go 
around the consumption states and talk about how our not having 
an energy policy and becoming too dependent upon foreign 
sources for our ability to fight a war is not an energy issue, 
it is a national security issue. Nobody listened to us, but I 
thought it sounded real good. Since then we have had the 
Persian Gulf War and we have had the crisis, the energy crisis 
in this country.
    I blame Republicans and Democrats alike. The Reagan 
administration did not have an energy policy. The Bush 
administration did not. Clinton did not. I think now we are on 
track to come up with something.
    I would hope that you would explore all possibilities. If 
we look at nuclear energy--and I do have that within a 
committee that I chair--in Europe and the countries over there, 
in France, 75 percent of their energy is nuclear energy. We are 
down to 20 percent.
    Even though there were a lot of people yelling and 
screaming back when we were starting up some of these plants, 
now it has changed a little bit because they recognize, with 
ambient air problems and other problems that come with some of 
the more conventional generation capabilities, that maybe 
nuclear is not so bad after all.
    So I just hope when you are looking at this crisis that we 
are faced with, which is an energy crisis as well as a national 
security crisis, that you will look and the administration will 
look at coal, natural gas, nuclear, and all other possible 
forms of energy.
    The second area that I would like to ask you maybe to 
respond on the record: Back in 1993, there were a lot of things 
that were done by the Clinton administration that appeared to 
people like me that it was almost intentionally opening the 
doors for security breaches, such things as removal of the 
color-coded security badges. This happened in 1993. The 
administration--and I respect them; that was their opinion, 
which I disagreed with--said this is discriminatory between 
people.
    They stopped the FBI background checks that same year, in 
1993. So that allowed a lot more people coming in and having 
access to our labs that did not have it before. They overturned 
a DOE decision, security decision, on an individual who had 
action taken against him for compromising material having to do 
with the W-88 warhead technology, the crown jewel of our 
nuclear security, and they reversed that decision. To me, that 
was the wrong message to send at that time.
    They declassified nuclear information in 1993. They 
rejected FBI-requested wiretaps. There were four wiretaps in 
conjunction with the W-88 technology.
    Now, on the first one I mentioned, the color-coded security 
badges, they were reinstated afterwards, due to a lot of public 
pressure and a lot of pressure from this committee. I would 
like to have you respond, if you could, on some of the others. 
Or if you don't have that information, since you haven't been 
at this quite long enough to really have gotten into many of 
these things, if you would for the record see in these other 
areas, the policies that were changed in 1993 through 1996, if 
they have been changed and, if not, if your intention would be 
to change them.
    Secretary Abraham. I would be glad to look into those. Just 
to give the committee some assurance, I think that all of us in 
Congress have expressed ourselves, or at least those of us who 
have been in the last couple of years in the Senate or the 
House, in terms of the concerns we have about security at our 
labs and throughout the Department of Energy.
    I came to this job in no small measure committed, as I was 
in the Senate, to making sure that one of the top priorities 
would be to, both on a programmatic as well as on a resource 
basis, invest what needed to be invested to address these 
problems, recognizing that our security at the labs is 
paramount, but that also it is very critical that we do it in a 
way that maintains a strong morale in the workforce.
    I think that can be done. Now, General Gordon has had a few 
months to be focused on these issues. He and I have already met 
a couple times so that I can get up to speed on some of the 
recommendations he is making. As we do that, we will certainly 
be keeping this committee informed. But I will specifically get 
back to you on the issues that you have raised so that we can 
address those individually.
    [The information referred to follows:]

    During the early 1990s, the Department of Energy reduced or 
eliminated many of its security orders in response to the National 
Performance Review, Executive Order 12861. It is my understanding that 
the reduction effort pushed the pendulum too far away from proven and 
needed security practices.
    Aware of the need for increased emphasis on good security 
practices, efforts have been underway to restore a more balanced 
approach to security policy. For example, since June 1999, the 
Department has issued 43 major policy directives in the areas of 
safeguards and security, cyber security, foreign visitor control, and 
others. Two policy efforts are especially noteworthy. The first has to 
do with declassifying information. The Department has in place a well-
established process for declassifying information, which includes a 
comprehensive review process of documents prepared by the Department as 
well as other agencies. In addition, DOE implemented a new program in 
1999, in response to Public Law 105-261, changing the manner in which 
other agencies declassify their documents. The Department surveys 
other-agency documents slated for public release for the presence of 
Restricted Data (RD). Documents found to contain RD are protected in 
accordance with the Government's security standards. The second effort 
concerns Foreign Visits and Assignments. In July 1999, the Department 
issued DOE P 142.1, ``Unclassified Foreign Visits and Assignments.'' 
The new policy, which reinstituted security indices checks, governs the 
foreign visits and assignment process and requires that security 
indices checks be conducted for all visitors and assignees from 
sensitive countries.
    Currently, more than 30 additional directives are undergoing 
development, review, and revision demonstrating the Department's 
commitment to restore and implement new policy guidance in those areas 
where it is most needed. I can assure you that these security efforts 
will continue.
    Today, I am more strongly committed than ever in my emphasis on 
security. I am convinced that through these comprehensive and sweeping 
initiatives DOE is aggressively and dynamically  changing the way it 
maintains the security of the valuable national assets entrusted to its 
care.

    Senator Inhofe. That is good. I am running out of time, but 
I have one other question, or request, I guess you would say. 
You talked about morale. One of the morale problems is that 
people who have information--and I remember we had specific 
hearings on Notra Trulock, for example, that he had information 
in 1995 about compromises on the W-88 technology. He went to 
the CIA Director, to the Attorney General, to the 
administration, and was not able to bring that information into 
either the House or the Senate. In this guy's particular case, 
his career was destroyed.
    But the bottom line is, for 3 years we did not know about 
something that someone internally knew about. I would hope that 
whistleblowers, or however you want to refer to them, would be 
protected and the best interest of our country would be 
recognized.
    Secretary Abraham. I would just say that General Gordon 
believes, and I share his view on this, that there is not a 
continuum, that morale and security are sort of inversely 
related. I think they are directly related. I think that 
security and strong morale are connected and that we want to 
make sure that each are strong. I do not think there is a 
tradeoff that has to be involved.
    I just would make one other point on your first comment. 
That is that I think that economics and national security are 
both part of energy security. I think the point that you raise 
with respect to the need for a national energy plan is one 
which the President recognizes. He has asked our Vice President 
to head an interagency task force, which has been publicly 
reported, of course, because we recognize that this is not just 
an Energy Department issue, it is also an issue that affects a 
number of the other agencies and Departments of government.
    We have now, and this task force is just beginning its 
work. The goal of it is to come forward, not with a modified or 
a partial energy plan, but one that is comprehensive. We will 
look forward to hearing from the members of the Senate and the 
House and others from outside the executive branch as we put 
this together.
    But the goal is to come back with something which in a 
long-term sense ensures the energy security that leads to our 
national and economic security.
    Senator Inhofe. I appreciate that answer very much, and I 
would hope that when that time comes that one of the 
cornerstones would be a maximum percentage of dependency upon 
foreign countries for our ability to fight a war.
    Secretary Abraham. Obviously, that is a consideration. So 
too is the need to have a balanced approach. I think that is 
why we need to have the focus of the number of the different 
Departments, so that when we consider sources we look at that 
from a balanced perspective.
    Senator Inhofe. Thank you.
    Chairman Warner. Thank you, Senator.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Mr. Secretary, I just want to ask questions about people 
and leadership and management retention concerns that are 
known. Management and program success we know depends on strong 
leaders who set standards and expectations. I believe that 
leadership needs to be long-term and consistent.
    Analysis of the senior management positions in DOE 
specifically in the Office of Defense Programs indicates a 
pattern of instability. The proportion of offices vacant or 
with acting managers has increased from 17 percent in 1996 to 
almost 65 percent in year 2000. A GAO report entitled 
``Improved Management Needed to Implement Stockpile Stewardship 
Program Effectively,'' pointed this out.
    The lack of management direction is found in both field 
sites and labs, as well as DOE headquarters. So my question to 
you is to ask whether this attention has been called to you and 
whether you have any plans to attract and keep qualified 
managers and leaders for programs and Department stability?
    Secretary Abraham. I am aware of the general problem, 
Senator Akaka. The specific percentages you have just indicated 
were not numbers I had immediate familiarity with, although I 
am confident that you are using data that is up to date and 
accurate. I think that it points out in yet another way some of 
the challenges which we face in running the entire slate of 
programs under the NNSA effectively.
    Obviously, General Gordon's responsibilities as the 
administrator of this new organization are in no small measure 
management responsibilities. I think the Congress in putting 
that organization in place and giving it semi-autonomous status 
recognized that there were some serious lines of authority 
challenges, management challenges, that were not being fully 
addressed the way the structure previously existed, for a 
variety of reasons.
    I do not believe these are ones that really can be blamed 
on any individuals or previous occupants of jobs. I think they 
in part are because of the nature of the way the Department was 
put together in large measure.
    So that is a primary objective we have and we will keep you 
and the committee informed as we move ahead. It is a little 
different kind of focus than the skills retention challenge, 
but it leads to some of the challenges we have with skills 
retention and other issues that I have raised here today, 
because if you have a constant turnover in terms of the 
managers of programs that leads to, I think, a certain kind of 
morale program or might lead to problems with regard to 
retaining or attracting the talent that we need on the line 
jobs.
    So we will look forward to--we are going to address it, try 
to address it at least, and I know that General Gordon has it 
at the top of his list of priorities.
    Senator Akaka. I just wanted to call attention to that 
because of the statistics that I presented.
    GAO recently added human capital management to the 
government's high risk area list due to personnel shortages, 
partly because of retirements. The Energy Department is cited 
as having human capital challenges because ``headquarters and 
field staff have lacked contract management skills to oversee 
large projects, such as the cleanup of radioactive and 
hazardous waste sites.''
    This is just one area. I believe there is an even greater 
problem in attracting research scientists and engineers to work 
in the three DOE labs. In the wake of the sometimes-hasty 
responses to very real security problems, morale is low and lab 
officials are finding it difficult to attract new talent.
    My question to you is where is the balance between national 
security and employee rights, and how do we ensure a productive 
DOE workforce and highly secure labs?
    Secretary Abraham. Well, as I said in my comment to Senator 
Inhofe, General Gordon believes, and I share his views on this, 
that there is not an inverse relationship. I do not think we 
have to sacrifice morale in order to get a strong confidence 
level in the security at our facilities or vice versa. I do not 
think that we have to sacrifice security in order to build 
morale.
    I do think we need to emphasize security and I think we 
need to do a better job of implementing effective security 
techniques in ways that do not create morale problems. I think 
that can be done, and I also think morale goes up when people 
feel that the work they are doing is in fact protected 
effectively. I think we have got to make sure we address it 
that way.
    But there is a challenge with respect to skills retention 
that I think goes beyond just simply the questions of recent 
incidents or the reaction to them. That is the challenge which 
we have in recruiting the most able and talented people for 
roles in our labs, in our weapons programs, and so on, that I 
think is fairly predictable.
    We are in a high tech age in which opportunities in the 
private sector are very lucrative to the most talented 
scientists, mathematicians, and others in our society. That 
requires people coming into the government service to make some 
concessions, if you would, on a financial basis. When they have 
the opportunity to find out that people they might have gone to 
graduate school with are out in a high tech job with tremendous 
financial rewards, it is a challenge.
    It is also a challenge because, in an era where we are no 
longer building new weapons systems, maybe the appeal from the 
standpoint that people are working on national security for 
their country is a little lower than it might have been at an 
earlier point during the Cold War. That is why we have 
obviously involved and increased the component of civilian 
science and research in our facilities to try to give people 
the kind of diverse opportunities that will cause us to still 
be able to retain and recruit the best people.
    But it is something that is high on my priority list 
because I recognize the important connection between having 
folks with great skills and our ability to do the job this 
Department is called on.
    Senator Akaka. I thank you for your response.
    My time is up, but let me just make this statement. It is 
reported to me that Asian Americans are especially wary of 
working in the labs and many are now retiring or leaving. I 
will not ask you the question here, but we can talk about it 
later, how we can ensure recruitment and retention of the Asian 
American community.
    Secretary Abraham. I would be glad to, and I just would say 
to you, Senator, that in the Energy Committee hearing we 
addressed the issue of profiling and concerns about that. I 
will get to you my answer that I made at that time, because I 
am very sensitive on profiling issues on a very personal level. 
Some of the issues I have worked on here in the Senate when I 
was a member were related to that, and I look forward to 
continuing that discussion.
    Senator Akaka. Thank you so much.
    Chairman Warner. Thank you very much, Senator.
    Senator Bunning.
    Senator Bunning. Thank you, Mr. Chairman.
    I would also like to reiterate that the vote on the 
Comprehensive Test Ban Treaty was insisted on by the 
administration, rather than those 62 people that signed the 
letter that did not want it, in response to Senator Levin's 
statement.
    Weapons cleanup, it is a mess and it is an expensive mess, 
the plants. I want to ask you a direct question, Spence: Are 
you ready to dedicate the number of dollars needed from the 
Department of Energy to clean up the 50-year mess we have had, 
not only in my state but other states?
    Secretary Abraham. Well, it is my understanding--and I do 
not have all the numbers yet.
    Senator Bunning. They are astronomical.
    Secretary Abraham. I know that some of the estimates I have 
seen would project over 70 years, because that is the time 
frame that the Department currently I think sees as being the 
necessary period of time to address all of the current and 
projected environmental contamination that has to be addressed, 
that we are looking at somewhere between $200 and $300 billion 
during that time frame.
    I do not think, after 10 days on the job, I am ready to put 
a specific figure on this or to try to quantify it in terms of 
our budget process. We are in the middle of that right now. But 
obviously, this is one of the priority budget items of this 
Department and it is going to be part of the budget which we 
will be submitting here.
    Senator Bunning. It just gets worse if you do not address 
it. It adds years to the cleanup and the degradation and 
environmental damage in the areas where we have used plants and 
had plants just continues to multiply if we do not address it. 
There is no current hold. In other words, you cannot hold it 
and emplace it. You have got to either get at it or it is going 
to get worse.
    I bring that up to the point of Jim Inhofe brought up the 
fact about nuclear energy and the contracts that we had with 
nuclear production facilities. We have got to have a permanent 
storage facility or the contracts that the Federal Government 
made with the facilities are going to run out of space.
    I say that because it is going to be an alternative we are 
going to have to look at very seriously, nuclear energy. The 
permanent storage place at Yucca Mountain, how dedicated will 
the Department of Energy be to making sure that that gets sited 
properly?
    Secretary Abraham. Well, the process is pretty clear. The 
steps that have to be taken are well known, and I am fully 
prepared to make sure that we maintain a timetable that brings 
us through that process. Now, the President has on numerous 
occasions made it clear that these decisions will be science-
based and we will follow a science-based process. Site 
determination and characterization challenges or inquiries are 
going on today.
    Obviously, there have been a number of factors that have 
caused this to be delayed, most recently an IG, Inspector 
General's, study that related to concerns raised about a 
possible conflict between the folks working on site 
determination and the role that they might play in other 
aspects of that process.
    But my hope and my commitment is to move the process 
forward as fast as is appropriate, given the constraints which 
are in place that are legitimate constraints of making sure 
that we make a science-based determination. But there are other 
parts of this. The Nuclear Regulatory Commission, even if a 
site recommendation is made, still has a role to play with 
regard to licensing. If the site at Yucca Mountain is selected, 
the State of Nevada has the opportunity to veto that choice, in 
which case Congress then would have an opportunity to override 
that veto.
    So, those steps all have to take place before a final 
determination of that site or any site would have to take 
place. The question is will the Department drag its feet in 
moving that process forward or not.
    Senator Bunning. You are telling me they will not.
    Secretary Abraham. I do not intend to, because I think that 
is what our responsibility is.
    Senator Bunning. Last but not least, security in our 
national labs and the need for the development--since we gave 
all of them away, all of our secrets, or they were espionaged 
away, there will be need for development of new type of nuclear 
weapons. I want, with General Gordon and you cooperating, I 
want you to make sure that this committee is brought up to date 
on, if we are developing--and it can be done in a private 
session--if we are developing new sophisticated nuclear 
weaponry, that you can assure us that it is not going out the 
door, that if the FBI and all other agencies that are charged 
with security, you can assure us that it is not going out the 
door.
    We need that assurance. My God, we spend billions and 
billions of dollars to develop that and, just because we have 
one person who downloads off of the sophisticated equipment 
into non-sophisticated equipment and then walks out the door 
with the disk--we have got to do better than that, Spence.
    Secretary Abraham. Well, Senator, I agree. As I said when I 
took this job, one of the priorities that in my mind from day 
one I brought to it was the commitment to make sure that when 
we invest as we do, not just the financial commitment of the 
American taxpayers, but the security of all of our citizens, 
that we do it in a way that we have certainty in the process.
    Part of this is something that the NNSA under General 
Gordon has been working on since he arrived in his job. We are 
soon to provide a cybersecurity proposal to the Congress. I met 
this week with Director Freeh to begin an exchange with him to 
make certain that our agency and the FBI can work 
constructively together to address security issues.
    It is as high a concern for me as any other that I have in 
this job.
    Senator Bunning. Thank you. My time has expired.
    Chairman Warner. Thank you very much, Senator.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Welcome, Mr. Secretary. Again, we all look forward to 
working with you. Let me return to the issue of the stockpile 
stewardship program. As you indicated in your opening remarks, 
for the fourth annual certification process both the Secretary 
of Energy and the Secretary of Defense have concluded that 
there is no requirement to test at this time. But resolution of 
the issue is ongoing, and as the chairman pointed out, that was 
a factor at least in the consideration of the Comprehensive 
Test Ban Treaty.
    Just let me raise the issue, what is preventing us from 
getting to the point where our stockpile program can be relied 
upon without testing? Is it a theoretical problem? Is it a 
budgetary problem? This 6- to 20-year gap, what is causing the 
delay?
    Secretary Abraham. Again, some of this covers topics that I 
am in the process of becoming better informed about. My 
understanding is that a lot of factors are involved. Obviously, 
on a regular basis we take apart our warheads to determine 
their content, any degradation that might have happened. That 
process is part of this. That is one step in the process.
    Another step in the process is developing new scientific 
equipment that can try to emulate in a laboratory setting the 
sorts of activities that go on when a nuclear explosion takes 
place. That led us in the direction of the development of the 
National Ignition Facility, NIF. That is not developed yet. It 
is in the developmental stages and the costs of that have been 
questioned because the projections are apparently too low. 
Whether that is because of bad projections or because of other 
factors, I have not yet been able to determine.
    But we do not know, once that facility is fully functional, 
assuming that happens, whether or not we can create 
sufficiently similar conditions to be able to determine certain 
kinds of scientific conclusions with respect to the performance 
of weapons systems.
    Some of these will take time to complete. I think where the 
lab directors were--and again, we have not met as a group yet. 
I have met with two of them in detail. But my sense is that 
they do not feel they can come to Congress or to the Secretary 
of Energy and say with certainty that they can certify with 
complete confidence in a future point--not today. I think they 
feel very comfortable about the recommendations that were made 
in January. But when they are asked, can you also make that 
same high-level of confidence recommendation or certification 
in 20 years, I think what they are saying is they are not able 
the tell us with certainty they will be able to do that until 
some of these steps have been taken.
    Senator Reed. Well, that just raises the question of how 
aggressively we are going to pursue the National Ignition 
Facility and other means to reach the point at which they can 
say with confidence that they can rely upon laboratory and 
computer models, rather than actual testing.
    Secretary Abraham. Well, all of these are commitments that 
have to be funded and supported.
    Senator Reed. I presume you are going to be supporting them 
because----
    Secretary Abraham. We support them. You all have to help 
fund them. But you know, it is also critical, I think, that as 
we move ahead in this we recognize that our goal is obviously 
to do this in a way that gives everybody the confidence level 
that they want. I will do my best to ascertain what steps are 
imperative to that and make sure that this committee and that 
you and other members are well apprised of what we believe are 
the components to give the confidence level, not just for today 
but in the future, at 100 percent. That is what, obviously, the 
NNSA, one if its top priorities obviously is.
    Senator Reed. Let me ask another question, Mr. Secretary. 
That is, you play a critical role in the nuclear posture review 
along with the Department of Defense. Going forward, I assume 
that you will keep a very close eye on this process and that 
you will look closely at the relationship between the proposed 
DOD delivery platforms and the warheads which are your primary 
consideration, and essentially just urge you to do that.
    Secretary Abraham. Will do. Obviously, there are two issues 
here. There is the strategic kinds of decisions that have to be 
made in terms of the long reach, the long view I mean, but also 
the feasibility issues. As I mentioned, one of the concerns 
that we have to address in terms of feasibility with respect to 
any modifications to existing weapons or to development of new 
ones is whether or not we have the infrastructure and whether 
or not we have the talent available to fulfil whatever kinds of 
strategic decisions are made as part of the posture review.
    So that is one of the other roles. That is an ongoing 
responsibility that we will not take lightly.
    Senator Reed. Thank you.
    I understand that General Gordon is working on some 
reorganization plans for NNSA. Again, I would ask if you intend 
to be supportive of these reorganization efforts as he tries to 
take a legislative vision and transform it into something that 
works practically?
    Secretary Abraham. General Gordon and I have had I think a 
very positive and strong start in the last couple of weeks. We 
talk or meet almost every day that we are in town, and that has 
been most days so far. We have already begun talking about his 
structural ideas as to how to make that agency work more 
effectively from a managerial point of view as well as from a 
logistics point of view, to try to address what I know will be 
increasing concerns around the Congress, as well as the 
executive branch, the OMB, and everybody about whether or not 
we are in fact performing our functions in a cost-efficient and 
timely way.
    What I would say is also this. I supported that legislation 
and so I did not come into this job viewing NNSA in some way as 
an adversarial or competitive agency. I view my responsibility 
ultimately as being the person who has to certify decisions 
made and hold accountability for the overall actions of NNSA. 
But it clearly is both Congress' intent and I think in the best 
interests of our Nation for that agency to have a lot of 
latitude to do its job well. My goal is to let General Gordon 
do his job, so that the goals we have set for NNSA are met.
    Senator Reed. Thank you, Mr. Secretary. Again, I look 
forward to working with you.
    Secretary Abraham. Me, too.
    Senator Reed. Good luck.
    Chairman Warner. Thank you, Senator.
    We will now have Senator Collins, to be followed by Senator 
Ben Nelson. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Secretary, I want to follow up on the issue raised by 
Senator Inhofe about the critical link between having a 
national energy policy and our national security. Last year 
Senator Schumer and I introduced a bipartisan bill in response 
to the previous administration's failure to develop a national 
energy policy, that called for the establishment of a 
presidential commission to develop a national energy policy.
    We are going to shortly reintroduce that legislation. It 
calls for a broad-based commission. It would have 
representatives of oil producers, environmental, and consumer 
groups. It would bring people outside of government together, 
so it is different from the inter-agency task force that I 
understand has been established by the new administration.
    First of all, not to put you on the spot, but we hope that 
you would be receptive to that idea. But most of all, we would 
like to meet very shortly with you, perhaps in the next week or 
two, to discuss the rationale for this. I hope that you would 
be willing to sit down and talk with us.
    Secretary Abraham. I would be happy to. I would just say 
that in the development of a plan, the process which has been 
started within the executive branch clearly will result at some 
point in a series of recommendations to the President as to 
policy initiatives. At least it is my personal view--I do not 
want to speak for either the Vice President or the other 
members of that task force--that I intend to try to, whether it 
is through a formal commission process or in a less formal way, 
to make sure that the thoughts and the input of people who are 
not part of the executive branch are considered, not just the 
Congress either, also the governors, also other stakeholders 
and organizations that have an interest in the development of 
these policies.
    I met last Thursday and Friday with the western governors 
and I will be meeting with the National Governors Association 
when they come to town in a few days, to try to make sure they 
understand, at least, that my door--and I did at least at the 
governors conference indicate, at his request, that the Vice 
President's door would be open.
    So I look forward to meeting with you and with Senator 
Schumer. I would be glad to do that, but also want to make sure 
everybody understands we are not trying to have an insular 
program that only considers the views of the people what are on 
the task force. At least I intend to reach out the try to 
elicit the input of others as well.
    Senator Collins. Thank you. I think that would be helpful. 
We do need broad-based input to developing a national energy 
policy to ensure that it is well developed, but also to build 
support for it.
    The second issue I want to raise deals with a report that 
was issued in December by the General Accounting Office, which 
pointed out that improved management was needed to implement 
the stockpile stewardship program effectively. GAO made a 
number of recommendations and identified a number of problems 
and weaknesses in the current system, such as organizational 
leadership deficiencies, the need for an effective management 
process for overseeing the life extension process for our 
nuclear weapons.
    Have you had the opportunity to review this report? Not in 
full detail, but I am aware of it.
    Senator Collins. I would encourage you to do so. I know 
that you are fully aware of how critical your responsibilities 
in that area are. GAO does make a number of common sense 
suggestions for improving the management of the stockpile 
stewardship program.
    Secretary Abraham. I would say that trying to make the 
functions of what is now the NNSA perform more effectively is a 
priority that I have. It is a priority that General Gordon has. 
He has obviously been there a little bit longer than me and so 
his operation is now ramping up. At the top of his goal list I 
know is to have an efficient operation of the stockpile 
stewardship program, but also of the other programs in the 
areas of nonproliferation and with respect to his other duties 
in the areas such as security.
    So it is definitely one of the things that we want to work 
with Congress on and keep you apprised of to earn the respect 
that I think that the operation must maintain, and we will work 
hard to earn that respect.
    Senator Collins. Thank you. Let me again tell you how 
delighted I am to have you leading the Department, and I do 
look forward to working with you.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator, and how delighted we 
are to have you a member of our committee.
    The same applies to you, Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    I must admit that I enjoyed the colloquy between our senior 
members on this committee about what happened and did not 
happen with respect to the vote. As I new member, not having 
any of that history, I am not tempted, you will be pleased to 
know, to clarify it, rewrite it, or restate it.
    I would like to suggest that, even though Senator Bunning 
did not throw any fastballs or curves, that you handled his 
hardball very well. I appreciate your answer in response to 
dealing with those very important challenges that you have 
ahead.
    Senator Inhofe referred to the relationship between energy 
and national security. I think in your position as Secretary of 
Energy you see it also as it relates to the environment and to 
the economic benefit to the country to work on and develop a 
national energy policy. Without regard to who has not in the 
past, I think it is important to say that it is important to 
the future to have a national energy policy and that now is the 
time.
    I want you to be aware that I will do everything that I can 
to assist you and your staff, your agency, and other 
departments to develop that kind of an energy policy that 
recognizes that there is a correlation and a total relationship 
between energy, national security, the environment, and the 
economic future of our country.
    The question I would like to get to is with respect to 
facilities, storage. We are talking about storage. People like 
to talk about it as disposal, but it is storage. You do not get 
rid of energy waste. It is in fact stored. It is not disposed.
    With respect the cleanup, does the technology that we have 
today--is it sufficient the deal with either of these issues, 
storage or cleanup? Is there any technology research and 
development under way that would help us be assured that, as we 
learn more, that we will be in a position to respond to more 
information and more science-based information on both storage 
and cleanup?
    Secretary Abraham. Well, one of the largest components of 
the budget of the Department is the environmental management 
budget. That along with our security, national security 
programs, collectively consume about 70 percent of the agency's 
budget, and they are both over 30 percent, 34 percent I think 
for environmental management or thereabouts. This has been in 
the range therefore cumulatively of some $6.2 billion, I think, 
in the fiscal year 2001 budget.
    A percentage of that, a substantial percentage of that, 
obviously goes to actual cleanup and the other programs, 
community programs, and transition programs and so on that are 
related to it. But also a significant amount of that budget, 
not as large as the cleanup itself, is for our research and 
technology development as it pertains to environmental 
management, as you have just outlined it. This is important.
    It is sort of an interesting follow-on, if you would, to 
the question that Senator Bunning asks. One of the issues that 
we have to, I think, wrestle with is the question of do we wish 
to extend for 70 years these cleanup programs. Some of them, 
just because of the nature of the sites, will require very 
long-term commitments. But we have to also question, as we move 
down that timetable, will we benefit from new research and new 
development, new technologies, that might expedite some of the 
cleanup, which to date takes long and costs more.
    I have not been at the Department long enough to tell you 
today, Senator, what the prospects are for such new 
technologies, but I think that that is an important investment 
that we make, because certainly if we can find ways to either 
do our jobs faster or less expensively that would be, of 
course, the kind of breakthrough that we would all like to see. 
But it is an ongoing part of our programs in our environmental 
management division.
    Senator Ben Nelson. Very good. One follow-up, as a sort of 
related issue. Because of the storage issue for high-level 
waste, there has been a great deal of money expended to find a 
suitable storage facility. On the low-level, which is defined 
as that which is not high-level--literally, I believe it is 
defined that way--there have been efforts on behalf of States 
and compacts, multi-state compacts, to try to deal with the 
storage and very often referred to as disposal of the low-level 
waste.
    Have you thought about the possibility of combining the 
facilities for high-level and low-level storage at the same 
location, maybe under different levels of security, different 
levels of technology, but similar locations? I wonder if you 
have had any thoughts about that.
    Secretary Abraham. I have to say that it may well be that 
within the Department some consideration of that has taken 
place. It is not something with which I am personally familiar 
at this time, but I would be glad to take that for the record 
and get back to you if I could.
    [The information referred to follows:]

    Low-level radioactive waste (LLW) is defined as radioactive waste 
that is not high-level waste, transuranic waste, spent nuclear fuel, 
by-product material as defined in section 11e(2) of the Atomic Energy 
Act, or naturally occurring radioactive material. It includes 
commercially generated materials from industry, hospitals, educational 
and research institutions, as well as materials from commercial and 
government nuclear facilities that generate low-level waste as part of 
their normal operations. The Low Level Radioactive Waste Policy Act (42 
USC 2021b et seq.) assigns responsibility for disposal of most 
commercially generated LLW to the States, encouraging the formation of 
inter-state compacts to provide for the disposal of these wastes. The 
implementing Nuclear Regulatory Commission (NRC) regulation for LLW is 
10 CFR Part 61. LLW generated by DOE facilities is regulated by the 
Department in accordance with the Atomic Energy Act.
    High-level radioactive waste (HLW) is the highly radioactive waste 
material resulting from reprocessing of spent nuclear fuel. The Nuclear 
Waste Policy Act (42 USC 10101 et seq.) assigns responsibility for 
disposal of HLW to the Department of Energy. The Environmental 
Protection Agency sets radiation protection standards and the NRC 
establishes implementing regulations for HLW disposal.
    Because of the separate and distinct requirements and 
responsibilities of the states and the Federal government for LLW and 
HLW, the Department has not considered the possibility of combining 
facilities for disposal of LLW and HLW at a single location, and has no 
current plans to do so. In addition, LLW is generally disposed of in 
near-surface facilities, whereas HLW is planned for disposal in a 
monitored geological repository.

    Senator Ben Nelson. I would appreciate it if you would look 
at that, because the States have struggled with the challenge 
of trying to deal with it. I know Michigan and Ohio have had 
their share of differences of opinion about how to go about 
doing it, as have other States. So I would be very much 
appreciative of your looking at that.
    Secretary Abraham. I would be glad to do that or to get 
back to you if there is any ongoing consideration as to either 
a combination or other programs that might be in the works.
    Senator Ben Nelson. Thank you.
    Chairman Warner. Senator Dayton.

                STATEMENT OF SENATOR MARK DAYTON

    Senator Dayton. Thank you, Mr. Chairman.
    Chairman Warner. We welcome you.
    Senator Dayton. Mr. Secretary, I congratulate you.
    Secretary Abraham. Thank you.
    Senator Dayton. Having served 4 years in the eighties as 
the Commissioner of Energy and Economic Development for 
Minnesota, and after 4 years of dealing with the energy 
problems facing one state with prices up and down and supplies 
and the like, anyone who is willing to take on all 50 states, 
has both my congratulations and my condolences.
    Secretary Abraham. I have received a shockingly high 
percentage of sympathy from both sides of the aisle over the 
last few weeks from people who have commented on this job. But 
I look forward to working with you to try to tap into your 
expertise.
    Senator Dayton. Well, thank you. My expertise would have 
been probably better for you before you decided whether or not 
to take the job.
    Secretary Abraham. It sounds like it.
    Senator Dayton. I would like to just follow up on what 
Senator Nelson discussed and Senator Bunning's excellent 
comments as well in terms of the nuclear waste. In your 
testimony you say that we can do a better job. We can make 
better progress in cleaning up and closing these facilities and 
sites. Recognizing that you are only 10 days on the job, do you 
have any further thoughts on that or could you get back to us 
with that?
    Secretary Abraham. I will elaborate a little bit and try to 
give you a sense of what is in my mind. I think that one of the 
concerns that I have heard from a number of people, 
particularly governors actually who have sites in their States, 
has been a concern about the overhead as opposed to the actual 
cleanup costs themselves.
    I recognize and I think everybody who's connected to this, 
whether it is this committee or the appropriating committees, 
that there is a tradeoff of sorts that has to be taken into 
account. Some of these sites are in places which have depended 
as communities on the activities that went on when there were 
active programs. Maybe there still is a partial program going 
on. Some of the dollars we have spent have been in the areas 
that have dealt with community transition and so on.
    But as a consequence, a certain amount of money has been 
dedicated to maintenance, if you would, rather than of actual 
cleanup. I will define maintenance and community support and so 
on as maybe one category. My goal is not to try to overstate 
the potential reductions in overhead that we might be able to 
achieve, but I do feel that there has been enough concern 
raised to me by folks in those communities or by the States and 
their leadership and by members of this body and the House that 
I believe that maybe there is some potential to shift some 
costs or some expenses, rather, or expenditures I should say, 
from the overhead and maintenance side of the equation to the 
cleanup.
    Senator Dayton. That would certainly be an excellent step 
in a better direction, because that is obviously what needs to 
be done.
    Is there a plan, a timetable for the cleanup aspect? I 
mean, how will we know when you know if we are making the 
progress that we can and should in 5 years from now or 10 years 
from now?
    Secretary Abraham. Obviously some of the issues, some of 
the cleanup projects, have become subjects of local regulatory 
bodies and state regulatory bodies or even Federal regulations 
that have put certain kinds of compliance deadlines or 
achievement levels in place. Obviously, we have not met every 
one of those and probably cannot meet every one of those, 
unless we had an unlimited budget to do so.
    But you know, first of all, I think it is important to 
express, on behalf of the Department and to congratulate those 
who preceded me, that a number of the smaller sites have been 
fully addressed and cleaned up in recent years. By everybody's 
acknowledgment, the targets were those that had fairly easy 
challenges--not easy, but challenges that were more attainable 
or more readily addressed than the more significant sites.
    But we have made some progress. I think the number might be 
as high as 91 sites that are close to being finished as of this 
time out of about 113 that once existed. The issue, though, is 
how do you go after some of these other sites where much more 
extensive work was done, because some of those other sites were 
not even--were facilities where they might have been where 
something was produced that went to a facility.
    Some deadlines have been set. I know that the year 2006 
marks the deadline for the completion of some of these sites. 
But as I also indicated to Senator Bunning, the Department's 
experts have indicated to me something which I had previously 
heard about when I was a member here, which is that the total 
completion of remediation may be as long as 70 years in total, 
with 2070 being a point when the only thing that would be left 
at these sites is the kind of monitoring to make sure that 
things retain the status that we would have achieved.
    The price tag is anywhere from $200 to $300 billion over 
that period, most of it at a certain number of obviously very, 
very substantial sites. Can we expedite that? I am not sure. I 
am not sure if it is feasible in light of ongoing activities in 
light of technology development and projected technology 
development. But I do think that we are going to see some 
finality and closure brought to at least several of the sites 
in the next 6 years.
    Senator Dayton. My time is almost up. Just two requests, 
really. One is it seems to me a very important responsibility 
that you have and that we share is to assure the general public 
that none of these sites pose an immediate threat to human 
health and safety. So I would ask you to review especially the 
sites that remain and see if there is anywhere where we should 
have that concern and handle that in an appropriate way.
    Second, I go back to what Senator Bunning said and you just 
referred to, Mr. Secretary, about the cost of this cleanup and 
the fact that if we postpone it we are adding to the costs 
ultimately to the taxpayers and we are also leaving I think a 
horrendous legacy to our children and grandchildren. I would 
hate to say to my grandchildren that we had a time of budget 
surplus and we chose to avoid these responsibilities and they 
both environmentally and financially have to pick up the tab 
down the road.
    So would you review that, please, sir, and if you believe 
that the funds are sufficient attest to us that they are, and 
if you believe that they are not let us know that they are not.
    Secretary Abraham. Well, I will do my best as part of the 
budget process to address these on a basis of urgency and 
priority. But I would also say that we should not lose sight of 
the fact that it took 50 years to get to this point and we 
cannot, I do not believe, even as I understand it, even with 
significant budget increases, do everything to close overnight. 
It will take some time.
    I do not think the Department's plan, which is at this 
point largely that which has been developed over the last few 
years, is one that is intended to extend unfairly or 
unnecessarily the time. But we do have sites where there is 
obviously ongoing activity continues even though there is 
cleanup activity going on, and that makes it a little bit 
different kind of challenge than places where all development 
and technology work is completed. We will be looking at those 
and measuring what ought to be the best use of our dollars and 
we will work with the committee.
    Senator Dayton. Thank you.
    Thank you, Mr. Chairman.
    Chairman Warner. I thank the Senator. That was an excellent 
line of questioning and puts into our record today a very 
important inclusion of fact.
    My colleague, I mentioned the concern I have about the 
ability of this country to maintain a nuclear weapons stockpile 
as the President deems necessary with his principal advisers to 
deter and defend. Any development of a new warhead--we have 
made a modification to one--but any development of a new 
warhead is dependent on the ability to test it. At the moment, 
we are going to continue the moratorium on testing and rely on 
the stockpile stewardship program, and we are nowhere near 
there.
    So basically, any thought of trying to come forward with a 
new system at this point in time has to be timed in 
relationship to when we can test it. But in the interim period, 
there is a very interesting report out, the Younger paper. Are 
you familiar with that? It is the paper issued by Los Alamos 
and I will just acquaint you with it briefly, the approach 
being that perhaps we can as we move towards a new generation 
do it in such a way that we can develop something that would 
enable us to bring down considerably the current size of 
inventory, which has a direct impact on your burden to 
revitalize the infrastructure which supports the current 
inventory.
    So this is a fairly interesting paper. Also, it touches on 
the possibility of working in the conventional area to replace 
the deterrence that we now rely on through the strategic 
systems.
    Secretary Abraham. Senator, is that what is referred to as 
the mini-nuke concept? I think I have heard it referred to that 
way.
    Chairman Warner. Well, like a lot of other things, like me, 
I have got many names around here.
    Secretary Abraham. I would just say, I am familiar with Mr. 
Younger's role at Los Alamos as well as the existence of the 
report. I have not had a chance to study it to date.
    Chairman Warner. I would appreciate that. What I was going 
to simply ask is, if you would review it and provide this 
committee with your written comments on that report and such 
sections of it that you endorse and perhaps will work towards 
implementation. I think it is a valuable contribution.
    [The information referred to follows:]

    Secretary Abraham did not provide this information in the 11 months 
between this hearing and the time it was sent to press. Upon receipt, 
this information will be retained in committee files.

    Now, last month Secretary Rumsfeld in his hearing before 
this committee in the advice and consent role stated: ``We need 
to be aware of the fact that Russia in particular claims to 
lack the financial resources to eliminate weapons of mass 
destruction, but continues to invest scarce resources in the 
development of newer, more sophisticated ICBM's and other 
weapons. We would not want the U.S. investment in the DOD CTR 
program''--one that I have supported since its very inception, 
by the way; to continue the quote: ``We would not want the U.S. 
investment in the DOD CTR program to become the means by which 
Russia frees up resources to finance its military modernization 
programs. A review of ongoing CTR projects and their respective 
national security benefits would be appropriate.''
    I would hope that you would work with him in conjunction to 
perform that review.
    Secretary Abraham. We will, Senator. Again, I think he 
makes a good point, one that we ought to focus on. Obviously, 
the U.S.-Russian relationship will be formulated on a lot of 
levels, not just in the context of the Energy Department or our 
policies, and we will look to the Department of State, the 
Department of Defense also as we would move forward.
    Chairman Warner. I thank you very much.
    Senator Thurmond was unable to be here today. He sends his 
personal regards to you as a great admirer, and he has a 
statement which we will include in today's record.
    [The prepared statement of Senator Thurmond follows:]
              Prepared Statement by Senator Strom Thurmond
    Thank you, Mr. Chairman, Secretary Abraham, I want to join Chairman 
Warner and Senator Levin in congratulating you on your confirmation as 
Secretary of Energy. We all have great expectations of you and I know 
you will live up to every one of them. If your first few weeks in 
office are any indication of the future, you will have an exciting 
tenure as Secretary of Energy. I wish you the best of luck.
    Mr. Secretary, I would like to note that you are the first Cabinet 
Member of President Bush's Administration to appear before this 
committee. The significance of your appearance should not be lost on 
the hard working and dedicated employees of the Department of Energy. 
This committee has a vital interest in the Department of Energy. Not 
only because the committee has oversight of more than 60 percent of the 
DOE budget, but also because of the Department's vital role in our 
national security.
    Mr. Secretary, since it is our national policy to no longer test 
nuclear weapons, the Stockpile Stewardship Program is the key to 
assuring the reliability and safety of these weapons. Although I do not 
expect an answer today, I hope that after you have had the opportunity 
to review the program you will give us your assurance that the 
Stockpile Stewardship Program is in fact living up to its expectations 
and that it is appropriately funded.
    My second concern is a reliable source for tritium. Because of the 
sensitivity of the commercial reactor option for tritium production, we 
must provide continuing support to complete the design for the 
accelerator program as a back-up option. I intend to closely follow 
your actions in this area and will do all in my power to prevent any 
further undue delay in getting a tritium production facility on line.
    Finally, Mr. Secretary, we must continue to provide adequate 
funding to maintain our nuclear infrastructure like the Savannah River 
Site. The longer we neglect the repair and maintenance of our aging 
nuclear facilities the more costly it will be to maintain. As I told 
your predecessor, not adequately funding our infrastructure is the same 
as unilateral nuclear disarmament. We cannot allow that to happen and I 
assure you it will not happen.
    Thank you Mr. Chairman. I look forward to working with Secretary 
Abraham and to the committee's support of a robust budget for the 
Department of Energy's Defense programs.

    Chairman Warner. Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    There is an Office of Oversight in the Department of Energy 
which now reports directly to you. What it oversees is the 
safety and security of the DOE's nuclear complex. My question 
is this: Are you going to maintain that current office? Is it 
going to continue to report directly to you or will it report 
to General Gordon?
    Secretary Abraham. Well, Mr. Podonsky, who runs that 
office, and I have not even had a chance to sit down and meet 
yet. But he has a number of issues which he wants to brief me 
on. So I have not had a chance to even get that briefing, let 
alone to focus on structural changes that might or might not be 
considered.
    It is, I know, a great concern to General Gordon that he 
have as much flexibility with respect to oversight within that 
portion of the Department that he has responsibility for, and 
we have not had a chance to discuss in detail how to do that 
most effectively. But as I said, I have not had a chance to 
meet yet with Glen Podonsky to begin the process of just 
getting a briefing from him on the ongoing projects he is 
engaged in to formulate an opinion about those, let alone any 
other structural issues.
    Senator Levin. General Gordon is doing a terrific job, but 
you cannot oversee yourself. True oversight has got to come, at 
least some of the best oversight comes, from outside, not 
inside. There is a role for it inside, but there has got to be 
an outside hand.
    We, during the debate on this new entity, the National 
Nuclear Security Administration (NNSA), debated whether we were 
going to hold responsible ultimately the Secretary of Energy 
for the operation of that entity, and the answer was yes, we 
need the Secretary to be accountable for all parts of the 
Department. So I would urge you to take a very careful look 
before you change that structure so that you continue to have 
directly reporting to you an oversight operation that is not 
directly inside the entity being overseen.
    I know you have not made a decision on that, but I want to 
let you know. That was--not necessarily just that office, but 
the question of the ultimate responsibility to the Secretary, 
we wanted to retain that responsibility, correct?
    Secretary Abraham. I remember that debate. I obviously was 
not part of the formulation of the NNSA, but as I evaluated the 
legislation I remember that being one of the central issues of 
concern to a lot of us. I took this job recognizing that I was 
ultimately responsible and expect to be held so.
    Senator Levin. You need the tools to exercise that 
responsibility.
    You have a statutory role in the nuclear posture review 
process. The force structure decisions are going to have 
significant impacts on the DOE and on your weapons complex at 
the DOE. Will you keep a close eye on the process generally, 
but more specifically will you make sure that there is a 
realistic relationship between the DOD delivery platforms and 
the warheads, so that we do not maintain more warheads than the 
platforms can deliver? Will you keep an eye on that issue?
    Secretary Abraham. [Nods affirmatively.]
    Senator Levin. The DOE is getting ready to begin a multi-
year life extension program for several different warhead types 
and the DOE facilities are not up to the task of the work that 
has to be performed on these warheads in order to extend their 
life. Will you support an effort to upgrade some of the 
facilities that will be used in that life extension program?
    Secretary Abraham. As I indicated earlier today here, I 
have great concerns, although I have not had a chance to visit 
all the facilities, about the infrastructure capabilities and 
potential that we have today. So I do support and will be 
supporting efforts to address that aspect of it.
    There are also concerns about our capacity to maintain 
certain components of the warhead or to produce plutonium pits, 
for example, and we will be monitoring that aspect of this as 
well to make sure that, if that is part of the life extension 
challenge we might contend with, that we are able to address 
that part of it, the technical as well as the structural and 
infrastructural issues.
    Senator Levin. As to the pit issue being evaluated, you 
have not reached any conclusion on that yet, is that correct?
    Secretary Abraham. That is correct.
    Senator Levin. There has been a reference by I think 
Senator Inhofe as to the necessity of energy independence and 
how important that is to our own national security and the more 
dependent we are on foreign sources of oil the less secure we 
are as a Nation for various reasons. In fact, one war recently 
was fought to a large measure over the security of that oil, 
petroleum supply.
    One of the ways in which we can reduce our dependence on 
imported energy is if our vehicles use less energy, less 
gasoline. There is a robust alternative fuel vehicle 
development program going on in various places and there is a 
more robust program being proposed that would include hybrid 
fuel vehicles, fuel cells, and other new technologies which 
would give us much greater mileage.
    Will you support a robust alternative fuel vehicle 
development program?
    Secretary Abraham. Well, Senator, I have supported your 
legislation with respect to some of these issues when I was a 
member here and look very favorably at the opportunities that 
are presented in that widely challenging area. I look forward 
to working with you in trying to fashion effective programs 
that the Department of Energy might take the lead on. 
Obviously, there are some of these that have several agencies 
that are in competition for or at least who share 
responsibility. But it is certainly something we have worked on 
in the past, which I expect to work on in the future with you 
as well.
    Senator Levin. Mr. Chairman, I want to put something in the 
record here. There was a reference by me and then by you and 
then by Senator Bunning to the Comprehensive Test Ban Treaty. 
Your reference to the source of the urgency for a debate on 
that was accurate and I said so when you made that reference.
    However, I disagree with Senator Bunning's comment. He said 
that the administration pushed for the vote on the 
Comprehensive Test Ban Treaty. I want to put in the record the 
letter from President Clinton requesting the postponement of 
consideration of that treaty on the Senate floor and your 
letter, along with Senator Moynihan and others, to Senator 
Lott, Majority Leader Lott, making reference to the fact that 
the Senate leadership--and I am here reading from your letter--
``has received a letter from President Clinton requesting that 
you postpone consideration of the Comprehensive Test Ban Treaty 
on the Senate floor.''
    I just do that for the record. I do not want to redebate 
the whole Comprehensive Test Ban Treaty, even though I would be 
happy to if anyone else wants to join it. But I do think that 
it is important that--and I am sorry Senator Bunning is not 
here, but I will let him know that I did put these materials in 
the record indicating that the President said that he supports 
the treaty as being in the interest of national security, 
however requesting that the consideration be postponed, and you 
indeed cited that letter in your letter, which very wisely 
sought that postponement.
    But I do not disagree at all with your comment that the 
pressure for the consideration came from the Democratic side of 
the aisle earlier in the consideration process.
    [The material referred to follows:]

                                           The White House,
                                      Washington, October 11, 1999.
    Dear Mr. Leader: Tomorrow, the Senate is scheduled to vote on the 
Comprehensive Test Ban Treaty. I firmly believe the Treaty is in the 
national interest. However, I recognize that there are a significant 
number of Senators who have honest disagreements. I believe that 
proceeding to a vote under these circumstances would severely harm the 
national security of the United States, damage our relationship with 
our allies, and undermine our historic leadership over 40 years, 
through administrations Republican and Democratic, in reducing the 
nuclear threat.
    Accordingly, I request that you postpone consideration of the 
Comprehensive Test Ban Treaty on the Senate floor.
            Sincerely,
                                                       Bill Clinton
    The Hon. Trent Lott,
    Majority Leader,
    United States Senate,
    Washington, DC.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Chairman Warner. Actually, Senator, I agree. That will be 
admitted to the record. But we should also include Senator 
Biden's insistence that we have a vote, which came--you 
referred earlier. He was a later chapter. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    Senator Levin. It was earlier than the President's letter.
    Chairman Warner. We will get the sequencing, but he very 
strongly desired that the Senate go to a vote on it.
    Senator Levin. But signed the letter requesting 
postponement. I am looking at it.
    Chairman Warner. It may well be. But that was an effort by 
Senator Moynihan and I. We felt we had to put the interests of 
so many ahead of it, but for lack of an hour, I think.
    Senator Levin. It was a good effort and I commended you 
then, and I commend you now. But I just wanted to clarify the 
record in terms of the President's position on postponement.
    Chairman Warner. We will leave open the record as such. If 
Senator Bunning wishes to add additional comments, he will do 
so.
    Now, Senator Dayton, we are about to wrap up, but we 
recognize you if you desire to ask another question.
    Senator Dayton. I will defer to the wrap-up. Thank you, 
Senator.
    Chairman Warner. All right. I thank you very much.
    Yes.
    Senator Levin. If I could just add one comment. I very much 
support the siting of the high-level waste repository and I 
very much welcome your comments, Senator Dayton and a number of 
other Senators here, on that issue. I know that you need to 
follow a process and that is perfectly proper. But that process 
has taken much too long. Too many States have relied on it. Too 
many consumers have paid fees aimed at paying for that and 
those fees sit in a bank account somewhere.
    In any event, I welcome your determination not to drag your 
feet on it, as I believe you mentioned to Senator Bunning if I 
am correct, and I very much join in that determination that 
process be followed, science be followed, but let us no longer 
delay a resolution of it.
    Do you know what President Bush's position is on this, by 
the way? Has he stated a position?
    Secretary Abraham. President Bush I think has been very 
clear in his commitment to move forward expeditiously, but only 
on the basis of sound science determination and the process 
that has been set. I think we recognize that probably the 
easiest way to slow the process is by creating procedural 
problems by failing to follow what are the clearly delineated 
criteria and process that has been set out. We are going to do 
our best--my commitment is to do our very best to try to keep 
on a timetable that also makes sure that we do not 
inadvertently open up potential legal or other challenges that 
will slow it even further.
    Senator Levin. Thank you.
    Chairman Warner. Before we conclude, colleague, you have 
always had a tremendous interest in the Comprehensive Test Ban 
Treaty as I have. I know not what President Bush, in 
consultation with his Secretaries of State, Defense, and indeed 
our colleague before us, will determine as to whether or not 
this matter is revisited. I know that my former boss, a man 
whom I greatly respect, Melvin Laird, has worked with General 
Shalikashvili and you are familiar with that report.
    But again speaking for myself, I think it is imperative 
that the committees of the Congress with jurisdiction, and we 
being one of those committees, would very thoroughly re-examine 
the ground that we examined in that I think famous series of 
three hearings before, go back over it again to make sure that 
the Senate has a full and adequate record and update of the 
aspects that were covered in those three hearings before.
    Senator Levin. I agree.
    Chairman Warner. Now, at the moment I certainly have no 
direction at all from anyone with regard to the treaty and what 
might be done, and therefore this committee will proceed on its 
orderly process in the authorization cycle to review testimony 
that the distinguished Secretary brings before us today and 
other matters that are somewhat tangential to future 
consideration of that treaty.
    But at such time as the President may or may not indicate 
procedures on this, I would hope that you and I would go to 
general quarters and get this committee prepared to go into 
great depth as to the issues over which we have jurisdiction 
that bear on a Senate debate on this treaty.
    Senator Levin. We would welcome that, Mr. Chairman, and 
very much support it, I supported your calling of those 
hearings, and would hope also that the Foreign Relations 
Committee obviously would have those hearings as well. But we 
should clearly revisit this. I think we had some impacts and 
ramifications created here when that was rejected beyond the 
narrow consideration of the technical terms of that treaty. So 
I would join you in that effort.
    Chairman Warner. Good.
    Now, we thank you. We have had an excellent hearing today. 
It is remarkable how much you have been able to grasp in the 
relatively short period of time, particularly with your high 
priority having been devoted to the serious power problem in 
the western part of our United States. We wish you luck in 
working with our President to resolve that situation.
    Senator Levin. I think we rightly give most of the credit 
to his wife Jane for the strong showings that he has made in a 
number of areas here.
    Secretary Abraham. That is a correct allegation.
    Chairman Warner. With that, I think we will close the 
hearing.
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Strom Thurmond
                      visit to savannah river site
    1. Senator Thurmond. I am fond of referring to the Savannah River 
Site (SRS) as the ``crown jewel'' of the weapons facility industrial 
complex. SRS has been selected as the site to conduct Pit Disassembly 
and Conversion, Mixed Oxide Fuel Fabrication and Irradiation Services, 
and, Plutonium Immobilization. It remains an active defense industrial 
site because of its tritium maintenance function. Also, the ongoing 
cleanup and waste management operations make this facility the most 
dynamic and diverse site in the complex.
    I recognize that you have much to do in the coming weeks to get 
your team on board as well as dealing with emergency issues such as the 
California Energy Crisis. However, will you commit to visiting the 
Savannah River Site when possible to see first hand the significant 
activities planned and ongoing at SRS and also the outstanding men and 
women who are entrusted to perform these vital missions?
    Secretary Abraham. As I mentioned during the hearing, our quality 
people are our most valuable asset. The men and women of the Savannah 
River Site have a long and distinguished history of serving the 
national security needs of the United States. I can certainly 
understand why you consider the Site to be the crown jewel of the 
weapons complex. I hope to visit all the weapons complex facilities, 
including those at Savannah River.

                     accelerator development effort
    2. Senator Thurmond. Last year, the Department of Energy 
established a new Accelerator Development Effort. The new office is 
lead by the Office of Nuclear Energy, Science and Technology and ``Co-
Chaired'' by the National Nuclear Security Administration's Office of 
Defense Programs. Mr. Secretary, I have no objections to combining 
efforts at the Department where appropriate, and it appears that there 
may be an opportunity for these offices to work cooperatively. However, 
the Accelerator is, by law, a Defense Program, designed, first and 
foremost, to serve as a backup source for tritium. As such, I will 
oppose any effort to remove the Accelerator from Defense Programs, 
furthermore, while the Senate version of the Fiscal Year 2001 Energy 
and Water Bill suggested the structure which the Department adopted, 
the final version made no recommendations on how the office should be 
established.
    What steps will you take to ensure that the Accelerator program 
remains a Defense Program as specified by law?
    Secretary Abraham. The National Nuclear Security Administration's 
Office of Defense programs (DP) will oversee the completion of the 
necessary design and engineering development and demonstration (ED&D) 
activities for the Accelerator Production of Tritium (APT) to be 
established as a viable backup tritium production technology. DP and 
the Office of Nuclear Energy, Science and Technology, will jointly 
manage the new Advanced Accelerator Applications program during a 2-
year development period ending in 2002. DP's Director of the APT 
program will also be the Deputy Director of the Advanced Accelerator 
Applications (AAA) program. He will be responsible for assuring the 
timely completion of APT design and ED&D milestones. In addition, DP 
will ensure that the accelerator developed by the AAA program will be 
capable, as necessary, of being upgraded to produce tritium for the 
Nation's nuclear weapons stockpile, based on requirements identified by 
DP. Should a decision be made forward with the AAA program and build an 
accelerator after the 2-year development period, the fact that the 
facility in time could be modified to produce tritium, if required, 
would establish an acceptable robust backup capability.

             securing russian nuclear weapons and materials
    3. Senator Thurmond. President Bush has identified securing Russian 
nuclear weapons and materials as one of the administration's top 
priorities. While I certainly support these efforts, the GAO criticized 
the implementation and oversight costs associated with the past 
efforts. In October of 1999, I recommended that the Department of 
Energy take advantage of the management expertise at the Savannah River 
Site, since SRS has been selected to manage the disposal of our own 
surplus nuclear weapons and materials. Last May, General Gordon of the 
NNSA indicated that the Department was making some progress based on my 
proposal.
    A. Please comment on the current status of management reform 
concerning the efforts to secure Russian nuclear materials.
    B. Also, where does the Department stand concerning my proposal to 
use the obvious benefits of associating the expertise of our own 
efforts to dispose of surplus weapons and materials with those ongoing 
in Russia?
    Secretary Abraham. The Material Protection, Control, and Accounting 
(MPC&A) program has undergone a number of significant managerial and 
organizational changes since October 1999. The Department completed the 
process of standing up a distinct, streamlined organization--the Office 
of International Materials Control and Emergency Cooperation. A new 
position of Assistant Deputy Administrator for NNSA was established to 
improve management and oversight. Moreover, the MPC&A program developed 
an independent budgeting process in order to sustain a more 
comprehensive, long-term approach to the threat. Under the National 
Nuclear Security Administration, the Office has expanded even further 
to its current configuration of five divisions. This new organizational 
structure has been augmented by the ongoing conversion of laboratory 
and contractor functions at Headquarters into Federal career positions. 
This work puts us in a much better posture than before for managing the 
various tasks associated with the multifaceted MPC&A mission. More 
importantly, we are now in a more favorable position to conduct future 
work, as we complete a comprehensive strategy and planning project--and 
as we begin focusing on programs designed to better prepare our Russian 
counterparts to sustain ongoing security upgrades beyond this current 
decade. The recently-completed 3-year GAO review of the program found 
that the program has substantially reduced the threat and that it has 
excellent project and financial controls. GAO also identified two 
recommendations for improvement with which we agree with and are 
implementing. One of these includes the development of a strategic plan 
that will update the program's mission and objectives. While developing 
a strategic plan, the MPC&A program is looking at all opportunities to 
include ideas and increase knowledge from many areas, including 
management expertise at the Savannah River Site (SRS).
    In addition, and as you may be aware, the administration has 
recently completed its review of U.S. Russia nonproliferation programs 
and is now in the process of consulting with Congress prior to making 
any decisions on these programs. The Review did result in specific 
recommendations concerning our on-going programs, as well as some ideas 
for new initiatives. Following consultation with Congress, the 
administration will decide which of these recommendations to accept.
    The Material Protection, Control, and Accounting (MPC&A) program 
deals principally with the securing of nuclear weapons and weapons-
grade material currently possessed by the Russian Federation--as 
opposed to addressing the challenge of disposing of excess weapons and 
fissile material. Nonetheless, we do have some initial efforts focused 
on the process of down blending Highly Enriched Uranium into Low-
Enriched Uranium. In each instance. the MPC&A program relies 
extensively on the technical and managerial skills of laboratories and 
nuclear facilities in the United States, such as the Savannah River 
Site (SRS). Since October 1999, SRS personnel have actively assisted 
three vital program areas: (a) material consolidation, and 
conversion,(b) inspections and training, and (c) installation of 
computerized nuclear material control and accounting systems. SRS 
personnel have traveled to Russia several times to serve as monitors at 
facilities where MPC&A efforts have resulted in the consolidation and 
conversion of nuclear weapons-grade material. SRS personnel also have 
been involved in developing training courses for GosAtomNadzor (the 
Russian nuclear regulatory commission) and the Russian Methodological 
and Training Center. SRS also has provided subject matter experts to 
accelerate the installation of MPC&A technologies at several nuclear 
facilities in Russia. There is an ongoing dialogue between 
representatives from SRS and the MPC&A program in which we continue to 
look for opportunities to leverage their vast experience in the overall 
MPC&A program.

                    plutonium manufacturing facility
    4. Senator Thurmond. Over the past several years a number of 
significant reports have criticized the Department's lack of planning 
for a large scale plutonium manufacturing facility. In response to the 
lack of attention by the previous administration, this committee 
included $11 million in the Fiscal Year 2001 Defense Authorization Bill 
for conceptual design of such a facility. Last may, I asked General 
Gordon this exact question, and he responded that he would review the 
Department's current approach.
    Where do you stand on this issue?
    Secretary Abraham. During fiscal year 2001, the Department is 
moving forward with planning and preconceptual design work for a Modern 
Pit Facility (MPF) based on the funding provided by Congress for this 
work. This work will provide a basis to proceed with the required NEPA 
activities and initial design phases of a MPF, as necessary. The size 
and design features for an MPF are dependent on the numbers and types 
of weapons in the future nuclear stockpile, the forecasted lifetimes of 
pits, and the technology required to manufacture pits that is being 
developed at the Los Alamos National Laboratory. The Department is on 
schedule to reestablish completely this manufacturing technology in 
fiscal year 2003, and to more accurately predict pit lifetimes in 
fiscal year 2004. A prudent risk management approach for proceeding 
with a MPF can then be established. In the interim, the Department will 
continue to proceed in a measured manner with preconceptual design work 
for a MPF consistent with available funding. The Department's approach 
for addressing our pit production needs has been reviewed and is 
supported by the joint DOD-DOE Nuclear Weapons Council.

                south carolina advanced technology park
    5. Senator Thurmond. I know that you are personally reviewing many 
different matters from the previous administration. One such matter is 
of great importance to me. Former Secretary Richardson was considering 
a redirection of funds under the 3161 funding. It is my understanding 
that your office is now reviewing this proposal.
    Since the South Carolina Advanced Technology Park was one of the 
sites selected to receive these funds, could you please tell me where 
we currently stand in this process?
    Secretary Abraham. The Department is evaluating funding 
requirements for the program for the balance of this fiscal year. It is 
my understanding that the Department has already transmitted $1.5  
million for the South Carolina Advance Technology Park to the Savannah 
River Operations Office for this project. However, pursuant to federal 
statute, no funds can be released for this project prior to approval 
from the Department of Commerce, Economic Development Administration 
(EDA). It is my understanding that the Tri-County Alliance of South 
Carolina is working with EDA to meet the requirements for approval.

                               priorities
    6. Senator Thurmond. As the Secretary of Energy you have a 
diversified portfolio including our Nation's nuclear program, ensuring 
an adequate energy supply to keep our economy growing, disposing of the 
Nation's nuclear waste and cleaning up the various nuclear sites.
    As you set your priorities for the coming years, which of your 
responsibilities do you consider the highest priority?
    Secretary Abraham. During my confirmation hearing I outlined the 
priorities of this Department. It is a challenging time for this 
Department and it will require a team effort to overcome these 
challenges.
    Paramount among the four missions of the Department is supporting 
our national security. More than two-thirds of the Department's funding 
comes from defense accounts. One of the most sobering and important 
responsibilities that is vested in the Secretary of Energy is the duty 
to annually certify to the President that the U.S. nuclear arsenal is 
safe, secure, and reliable. Nothing is higher on my priority list than 
the management of our nuclear stockpile.
    The Department also plays a critical role in the challenge of 
nuclear nonproliferation. This Nation has an acute interest in 
accounting for and preventing the spread of nuclear weapons materials 
and expertise. To ensure our national laboratories are secure, and 
NNSA's vital functions are effectively performed, the Department and 
the NNSA must accord the highly skilled employees at our facilities the 
dignity and respect they deserve and take measures to promote their 
development and retention.
    The second area where the Department supports the national interest 
is, of course, in the area of energy policy. The daily electricity 
crisis in California and high energy prices in many other parts of the 
United States demonstrate the urgency and importance of developing a 
national energy policy. President Bush and I are deeply committed to 
developing an energy policy that promotes domestic production of energy 
in an environmentally responsible manner, increases our use of 
renewable energy, decreases our reliance on imported oil, and develops 
new technologies that can conserve fossil fuels and reduce energy-
related pollution.
    The third area where the Department supports the national interest 
is through research in science and technology. During the past 6 years, 
I worked with many of my former colleagues in the Senate and others on 
a variety of science and technology programs that I believe can improve 
our economic competitiveness. I cannot stress enough my desire to 
continue to move this Nation forward in this area. The science and 
technology programs at the Department have been widely praised, and 
justly so.
    The laboratories have improved the ability of the Department to 
perform its national security, environmental management, and energy 
policy missions. The laboratories are also, of course, supporting the 
activities and missions of other Federal agencies, but they do much 
more than that. I think we would all agree they are national treasures. 
I believe the national laboratories can serve the country, in many 
other capacities, and I look forward to exploring the full potential 
for partnerships with industry and with the academic community.
    The final area where the Department supports the national interest 
is in the area of environmental stewardship. As you all know, the 
Department has the unenviable responsibility for implementing the 
world's largest cleanup program. In this respect, the Department has an 
exceptionally, difficult challenge in terms of both cleaning up as well 
as managing the waste generated during more than 50 years of nuclear 
weapons production.
    These problems were not created overnight, and certainly we are not 
going to resolve them quickly or easily, but I think we can do a better 
job of accelerating cleanup and closure of those sites that are surplus 
to DOE's needs. I pledge to work with Congress and the States to find 
ways to move the DOE's cleanup program forward.
    With respect to the nuclear waste program, I share President Bush's 
commitment to ensuring that sound science governs the program. I share 
the frustration of the members of this committee with the lack of 
progress in this area. My commitment is to make progress on the nuclear 
waste program while ensuring that sound science governs decisions on-
site recommendation.
                                 ______
                                 
                Questions Submitted by Senator Bob Smith
                            security issues
    7. Senator Smith. I am gratified that you see security at our 
Nation's nuclear weapons programs as your highest priority. We have 
seen our latest technology given to the Chinese and perhaps other 
competitors of this nation in the past few years. We have heard pointed 
reports by numerous organizations, both inside DOE and out, of lax 
security at the DOE laboratories. This committee has even submitted 
questions for response by DOE concerning practices at several DOE 
laboratories which I feel were not answered truthfully. I fear these 
disturbing trends will be difficult to turn around.
    How do you intend to assure this committee and the American people 
that our national security is not at risk in DOE? I see this as your 
most important mission.
    Secretary Abraham. As I have stated, a strong level of security in 
the Department of Energy is one of my highest priorities. I understand 
that security at the DOE National laboratories has improved over the 
last year as a result of focused effort within the DOE to ensure 
protection of our nation's secrets. While it is impossible to have 100 
percent secure facilities, as demonstrated by recent security incidents 
at a number of non-DOE facilities, the establishment of the NNSA and 
DOE's current approach to its implementation has clarified the roles 
and responsibilities for improving security at these facilities, such 
as placing increasing emphasis on the individual employee's 
responsibility for security.
    The NNSA is leading a number of efforts to ensure continued 
improvement in security in a cost-effective manner. This includes 
efforts to conduct a review of security directives to identify more 
cost-effective ways to meet the level of security needed for the 
various categories of information and materials in the NNSA and the 
DOE. The NNSA is developing an Integrated Safeguards and Security 
Management system that is focused on ensuring the employees understand 
that they are the key to success in security. The initial focus of this 
effort is to ensure that employees understand the reasons for the 
security measures being implemented and have the opportunity to 
identify improvements. The NNSA is also working closely with the 
Department of Defense in identifying information that requires a higher 
level of protection as well as ensuring consistency in the level of 
threats that the two agencies protect against.
    Of course the Department will continue to maintain a comprehensive 
oversight program to assess, evaluate, and test all aspects of security 
at our facilities. I believe we are on the right path and will continue 
to monitor our progress to ensure we provide the highest level of 
security while maintaining world class science.


    8. Senator Smith. We are spending hundreds of millions of dollars 
in Russia to build facilities which do not exist in this country, and 
equivalent protections for the people and the environment are not being 
put in place despite DOE and federal regulations that require these 
protections.
    Since the management and budget decisions rest with the Secretary, 
as does the responsibility for effective protection of people, the 
environment, and the highly classified information at your facilities, 
how will security and environmental protection issues be reviewed in 
the DOE to ensure these requirements are fully represented in the 
President's budget request?
    Secretary Abraham. Budget allocation issues associated with 
security and environmental protection are reviewed and addressed by a 
hierarchy of organizations within the Department starting with 
contractor and field elements and culminating with decisions made by 
the Secretary and the Department's top program and corporate officials. 
Requirements are identified by information inputs from the field and 
program offices in the form of budget requests and responses to 
specific inquiries.
    Specifically, for security, the program offices responsible for 
overseeing site operations (particularly the Offices of Defense 
Programs, Environmental Management, and Science), and the Office of 
Security and Emergency Operations have reviewed requirements for budget 
request prioritization. The Environmental Management program has 
responsibility for prioritizing environmental protection in activities 
at their sites across the DOE complex.

                           fissile materials
    9. Senator Smith. Rocky Flats, Richland, Idaho, and Livermore no 
longer have production or design missions which require other than very 
small quantities of nuclear materials. 
    Why haven't fissile materials been removed from facilities which no 
longer have missions requiring the use of large quantities of nuclear 
materials?
    Secretary Abraham. Most of the sites you refer to are currently 
part of the Environmental Management program's cleanup efforts. We have 
efforts underway to remove fissile materials from facilities which do 
not have production or design missions. Storage studies completed in 
the past year identified storage locations for plutonium awaiting 
disposition. The recommendations of these studies are now being 
implemented.
    A prime example of these efforts is Rocky Flats. The removal of all 
special nuclear materials from Rocky Flats is a critical path activity 
within the site's closure project baseline. Significant progress has 
been made to date, including the offsite shipment of all remaining 
highly enriched uranium solutions (completed in 1996), shipment of 
surplus plutonium pits to Pantex (1999), shipment of plutonium scrub 
alloy to Savannah River Site (2000). Additionally, shipment of 
classified plutonium metals to Savannah River Site has been completed 
and shipments of similar materials to Los Alamos National Laboratory 
will be completed this quarter. The shipment of Rocky Flats' 
unclassified plutonium metals and oxides to the Savannah River Site is 
scheduled to begin this spring. For the remaining nuclear material, on 
site, we are continuing to finalize and implement the disposition 
plans. The implementation of these plans entails the detailed 
coordination of needed container certification and transportation 
activities, as well as preparations at the receiver sites. In addition 
to offsite shipments, Rocky Flats is consolidating all category I and 
category II special nuclear material into Building 371. This will allow 
for the reconfiguration of the protected area around Building 371, 
thereby reducing safeguards and security costs and allowing for full 
decontamination and decommissioning activities to proceed in the 
remaining plutonium facilities.
    At Richland, efforts are underway to stabilize and repackage 
plutonium materials for shipment to an immobilization facility 
(currently under design) at the Savannah River Site. Current plans call 
for all of Richland's materials to be ready for shipment by May 2004.
    Similarly at Lawrence Livermore National Laboratory, equipment has 
been installed for packaging plutonium for shipment to the Savannah 
River Site. Testing and qualification of the equipment is scheduled to 
be completed early this spring, with completion of stabilization and 
packaging of at-risk material by May 2002. It is important to note that 
Lawrence Livermore National Laboratory has a continuing nuclear 
materials mission as one of the three weapons laboratories in the 
Nuclear Weapons Material Stewardship Program.
    At Idaho, fissile materials efforts have focused primarily on 
improving the storage conditions of spent nuclear fuel being prepared 
for shipment to a national repository. In April 2000, the Department 
completed removal of all spent nuclear fuel from unfavorable storage 
conditions in the CPP-603 South Basin. This milestone was completed 8 
months ahead of schedule, and is part of an integrated plan to remove 
all DOE-owned and Navy spent nuclear fuel from Idaho by 2035.

                   consolidation of nuclear materials
    10-12. Senator Smith. The United States has recommended the 
consolidation of nuclear materials in Russia and is in fact building 
central facilities for safer and more secure storage of these materials 
as we speak. Why doesn't the same advice apply to our facilities, 
particularly those which we have determined are no longer needed to 
support our nuclear deterrent?
    One of the best and most cost effective ways to deal with the 
safety and security problems which have been widely reported at DOE is 
to remove the source of the problem. I understand a consolidation of 
nuclear materials into two or three central national security 
repositories was proposed within DOE almost a decade ago in order to 
cut costs by almost half and improve both safety and security.
    Why haven't we seen this plan?
    Why are Russian facilities going up faster than facilities which 
are necessary to protect our citizens and our environment?
    Secretary Abraham. We agree that consolidation of storage 
facilities would be beneficial and are moving in that direction. The 
Department examined the storage and disposition of nuclear material in 
the weapons complex Storage and Disposition of Weapons-Usable Fissile 
Materials Final Programmatic Environmental Impact Statement issued in 
December 1996. The Record of Decision issued in January 1997 
established a program to provide for the safe and secure storage of 
plutonium and highly enriched uranium (HEU) and a strategy for the 
disposition of plutonium declared excess to national security needs in 
such a manner that it will never again be used for nuclear weapons.
    Beginning in 1997, excess plutonium pits stored at the Rocky Flats 
Environmental Technology Site in Colorado were moved to safe and secure 
storage at the Pantex Plant in Texas. Excess non-pit plutonium now at 
Rocky Flats will be moved to the Savannah River Site as soon as the K-
Area Materials Storage project (the old K Reactor) is completed and 
certified shipping containers are available
    That project is funded by the Department's Office of Environmental 
Management.
    Excess plutonium currently stored at the Hanford Site in 
Washington, the Idaho National Engineering Laboratory and the Los 
Alamos National Laboratory in New Mexico will remain at those sites 
until disposition or temporary storage facilities are completed at the 
Savannah River Site. Existing storage facilities at the Y-12 plant at 
the Oak Ridge Reservation in Tennessee will be upgraded to store both 
non-surplus HEU and surplus HEU pending disposition.
    Only one major construction project is underway in Russia to safely 
store fissile material derived from dismantled nuclear weapons at the 
Mayak Production Association; this project is funded and managed by the 
Department of Defense. The impetus for this facility was the bottleneck 
that the Russians identified in the early 1990s in their nuclear 
weapons dismantlement pipeline, insufficient storage space. In order 
for dismantlement to continue, the U.S. agreed to help construct one 
facility that would store this fissile material from former weapons 
safely and securely. The facility is scheduled to become operational in 
2002, although in the past it has experienced some delays.

                         security issues at doe
    13. Senator Smith. I sent a letter dated March 20, 2000, to then-
Secretary Bill Richardson, which he chose not to respond to or act on. 
The letter outlined several serious security lapses at DOE: access 
issues at Y-12 Production Facility at Oak Ridge, Tennessee; a 
vulnerability at TA-18 at the Los Alamos National Laboratory; and 
concerns about the movement of nuclear weapons and special nuclear 
materials across our highways.
    Will you review those specific issues I raised in my letter and 
respond directly to me?
    Secretary Abraham. Yes, I have looked into the issues you raised in 
your letter and the following information summarizes my understanding 
of each issue. With respect to the Y-12 Plant at Oak Ridge, you raised 
the issue of what has been done to deter potential security threats 
from vehicles entering the facility. Actions have been taken by the Y-
12 Plant at Oak Ridge that have substantially mitigated any concerns 
regarding the adequacy of vehicle searches. The number of vehicles 
which may now enter the protected area of the Y-12 Plant on a daily 
basis was reduced by approximately 90 percent. Each vehicle that enters 
the protected area receives a detailed search for weapons and 
explosives. All trucks entering are also searched by explosive-
detecting dogs.
    Regarding TA-18, you were concerned with its security due to its 
proximity to a public road. In April, 2000, then-Secretary Richardson 
announced that due to the high operational security costs of TA-18, it 
will be relocated to either another LANL site, Sandia National 
Laboratories, Argonne National Laboratory-West, or the Nevada Test 
Site. A draft Environmental Impact Statement is expected in May of this 
year, and the necessary planning and preparation to implement the 
decision is underway.
    Addressing your concerns regarding our Transportation Safeguards 
Division (TSD), the TSD has implemented a 5-year plan to enhance its 
ability to respond to security threats. Over this time there will be a 
40 percent increase in the number of Federal Agent Couriers. The older 
Safe Secure Transport fleet is being replaced with new-generation 
Safeguards Transporters and new-generation escort vehicles. New weapons 
have been purchased for agents, and training in tactical decision 
planning has been implemented. A January 2001 ``force-on-force'' 
exercise confirmed that these actions are effective in enhancing the 
rigor of TSD protective measures. Although there has been no recent 
testing by the DOD on these issues DOE's Office of Independent 
Oversight and Performance Assurance and NNSA/HQ's annual security 
assessment is currently underway. The Safeguards/Physical Security 
Division at the Albuquerque Operations Office, is expected to conduct 
its annual security assessments of TSD in June of this year.


    14. Senator Smith. I have developed a reputation in Congress for 
helping whistleblowers who have suffered horrible reprisals for their 
efforts to flag abuses of in government, misuse of funds, and the like. 
I continue to have government and military employees knocking on my 
door for help today. The cases described to me have been awful. This is 
a big government with a lot of good people working in it, but there are 
also a few bad ones in my mind. The good people who come to me for help 
have suffered massive legal bills in their own defense, and the stress 
of their situations has often taken a tragic toll on the individuals 
and their families. I spoke to your predecessor, Secretary Richardson, 
about several such cases in DOE last summer, the cases of Joe Carson, 
Notra Trulock, Jim Ware, and Larry Ogletree. Many on this Committee are 
familiar with my similar concerns regarding retaliation against the KE-
ASAT program staff.
    President Bush stood up on his first day on the job 2 weeks ago and 
spoke of his expectations for standards of conduct and ethics in his 
administration.
    I am sorry if you already answered this in your confirmation 
hearing, but will you commit to this Committee and to me that your 
Department will have a zero tolerance for reprisal against 
whistleblowers, as did your three immediate predecessors?
    Secretary Abraham. The Department will not tolerate reprisals 
against employees who in good faith call attention to environmental 
problems, health or safety concerns, or management inefficiencies. They 
perform a valuable service, and should not be penalized for voicing 
their concerns. While management has a right and an obligation to take 
appropriate personnel actions, retaliating against an employee simply 
because he has been a ``whistleblower'' is never appropriate.


    15. Senator Smith. You may be aware of a Superfund site in New 
Mexico at which Natural Resource Damage (NRD) claims have been brought 
totaling nearly 1/2 a billion dollars. One major liable party at this 
site is DOE.
    Has DOE inventoried its potential NRD liability at sites throughout 
the complex? If not, can you make that a priority?
    We intend to address NRD reform in the Environment and Public Works 
Committee this year, and that information would be very helpful.
    Secretary Abraham. At this time, it is difficult to predict the 
natural resource damage liability at our sites. Factors that could 
influence natural resource damage liability include the degree to which 
the natural resources have been injured and the degree to which the 
concerns of the natural resource trustees can be satisfied in the 
remedy selection process. Response action remedies have not yet been 
selected at many locations and, therefore, the residual effects that 
may remain after cleanup are not known. No formal natural resource 
damage assessments have been done at any Department sites. The 
Department considers any estimate of its natural resource damage 
liability to be extremely speculative and not adequate for developing 
current budget estimates. The Department will continue to monitor the 
natural resource damage potential at its sites.
    The Department's policy, as both the primary natural resource 
trustee and lead response agency for cleanup at its facilities, is to 
work with the Federal, State and Tribal trustees early in the cleanup 
process and address their concerns, to the extent possible, during 
remedy selection to limit or eliminate the potential for significant 
natural resource damage liability. The Department has initiated other 
efforts that are intended to minimize the potential for natural 
resource damage claims, such as creating site-specific advisory boards 
at its facilities, ensuring participation of interested parties in the 
remedial action planning process, and forming natural resource trustee 
councils at facilities where there is sufficient interest.
                                 ______
                                 
              Questions Submitted by Senator Rick Santorum
                             mpc&a program
    16. Senator Santorum. In 2000, the U.S. General Accounting Office 
(GAO) reviewed the Department of Energy's Material Protection, Control, 
and Accounting (MPC&A) program. GAO noted that only 7 percent of the 
650 metric tons of material that had been identified as being at risk 
for theft or diversion, are stored in buildings with installed security 
systems.
    Of the 50 metric tons of nuclear material presently contained under 
this program, how many tons are from civilian or Russian navy sites and 
how many are from the Russian nuclear weapons complex?
    Secretary Abraham. Since the previous GAO report, estimates of the 
total scope of the problem have increased significantly. We currently 
assess that approximately 95 sites in the Russian Federation--
containing approximately 850 metric tons of weapons-useable material or 
material in nuclear weapons require security upgrades. Of that 850 
metric tons, approximately 4 percent are located at civilian sites, 
approximately 33 percent are located at navy sites, and approximately 
63 percent are located at sites which fall under the purview of the 
MinAtom nuclear weapons complex. The most recent GAO report, ``Security 
of Russia's Nuclear Material Improving: Further Enhancements Needed,'' 
concludes that the program has improved the security for 192 MTs of 
proliferation attractive material, representing 32 percent of the 
material at risk. This is significant threat reduction. In addition, 
threat reduction activity is underway for an additional several hundred 
metric tons of material.


    17. Senator Santorum. GAO states that most of the buildings and 
facilities that have received security systems under the MPC&A program 
are located at civilian nuclear research sites. Furthermore, it is 
estimated that these sites comprise only 5 percent of the total nuclear 
material in buildings that require security systems.
    Can you explain why the efforts to secure nuclear material at 
Russia's nuclear weapons complex have lagged behind progress made in 
the civilian area?
    Secretary Abraham. Progress in Material Protection, Control, and 
Accounting (MPC&A) work at facilities controlled by the MinAtom nuclear 
weapons complex has lagged behind that in the civilian area because the 
Russians have been reluctant to grant us access to some of their most 
sensitive facilities. Access is an essential prerequisite in order to 
ensure that U.S. funds are used for their intended purposes. MPC&A 
guidelines require that appropriate access and assurances be defined, 
approved, and contractually agreed to, prior to contract signing for 
all MPC&A upgrades. MPC&A will not pay for work until access/assurances 
have been granted. We continue to work this issue with our counterparts 
in MinAtom, and we have made recent progress gaining access to key 
weapons facilities: Chelyabinsk-70, Arzamas-16, Tomsk and Mayak. We 
also have reached agreement with MinAtom on a comprehensive access 
approach which will address both the Russian concern about protecting 
state secrets and our requirement to gain appropriate access and 
assurances in order to ensure that MPC&A work is properly performed.
    Once this access agreement is in place, the pace of our progress in 
providing security upgrades to sites within the MinAtom nuclear weapons 
complex should pick up significantly.
                                 ______
                                 
              Questions Submitted by Senator Wayne Allard
  safeguards and security funding at environmental management closure 
                                 sites
    18. Senator Allard. Mr. Secretary, an issue that I have been 
watching very closely over the last year has been the shift of security 
and safeguard funding from field offices to a centralized office at 
headquarters. While  I support efforts to increase security at DOE, I 
do not believe that shifting funds and flexibility for guns, guards, 
and gates from field sites is in the best interest of the Department. 
Another reason I am concerned about this shift is that a critical 
assumption underlying Rocky Flats' 2006 closure date is that after the 
need for security and safeguards is removed, these funds are to be 
shifted into cleanup funds.
    Can you assure me that DOE will continue to fund closure projects 
as in the past (prior to any shift), allowing closure sites to control 
their own spending and to reallocate these savings into accelerated 
cleanup activities?
    Secretary Abraham. Yes. Closing sites like Rocky Flats remains a 
priority for the Environmental Management program. The fiscal year 2001 
Energy and Water Appropriations Act clearly provided that any excess 
safety and security dollars can be used to do more cleanup at closure 
sites. I support the closure goal for these sites and will ensure that 
any savings that result from reducing security needs at closing sites 
go back into cleanup at the sites.

                         five-year budget plan
    19. Senator Allard. Over the last few years, Congress has required 
DOE to provide a 5-year budget estimate at the same level of detail as 
the President's annual budget submittal. DOE has failed to fully comply 
with the law.
    Do you agree that the Department needs to provide a 5-year budget 
plan in order to provide a budgetary plan to the Secretary and the 
Congress? Can you assure me that you will provide this 5-year plan?
    Secretary Abraham. I agree that 5-year budget planning and 
programming is essential for responsible and credible budget 
development. The Administrator of the National Nuclear Security 
Administration is required to submit a future-years nuclear security 
program by section 3253 of the National Defense Authorization Act for 
fiscal year 2000. The Administrator has committed to meet this 
requirement with the fiscal year 2002 Congressional Budget Request.

                      pit and tritium production 
    20. Senator Allard. Could you give me your views on DOE's 
capacities to replace plutonium pits and tritium and what plans you see 
for improving the future prospects of moving forward for these critical 
requirements?
    Secretary Abraham. To meet the critical requirement to replace 
plutonium pits, the Department is reestablishing the technology to 
fabricate some 10 to 15 pits per year at the Los Alamos National 
Laboratory and is on schedule to complete the first certifiable W88 pit 
in fiscal year 2003. In fiscal year 2004, new information from pit-
aging studies is expected to provide further insight into pit lifetimes 
which when coupled with more precise requirements for the numbers and 
types of weapons in the stockpile will enable planning for a Modern Pit 
Facility to meet future pit manufacturing requirements, as required.
    Since 1996, the Department has had a project in place that will 
establish a new tritium production capability using commercial light 
water nuclear reactors operated by the Tennessee  Valley Authority 
(TVA). The project is on schedule and within its budget. The new 
tritium-production system will be capable of delivering new tritium to 
the nuclear weapons stockpile as early as 2006.
    In late March, the TVA will submit requests to the Nuclear 
Regulatory Commission (NRC) requesting that the operating licenses of 
its Watts Bar. Sequoyah Unit 1, and Sequoyah Unit 2 reactors be amended 
to permit irradiation of tritium-producing rods in the reactors. The 
NRC has promised the Department that it will expeditiously review the 
amended license requests although approval is not required until the 
fourth quarter of 2003 to begin irradiation of tritium rods so that new 
tritium is available in fiscal year 2006.

                         production facilities
    21. Senator Allard. We have seen a dramatic decline at our four 
weapons production plants, both in personnel and infrastructure. It is 
imperative that there is a modernization effort for the plants 
infrastructure. These deficiencies are not only hurting our national 
security, but also the safety and health of the dedicated workforce.
    Can you comment on this situation and let me know if you are 
planning to use your 5 year budget to fund these critical shortfalls?
    Secretary Abraham. There seems to be general agreement that there 
are serious problems with the facilities infrastructure of our nuclear 
weapons complex, including the production plants. The nuclear weapons 
complex is old, facilities are deteriorating at an accelerating rate, 
and preventive maintenance and recapitalization have been underfunded 
for a long time. These problems, set forth in the Defense Programs 
Facilities and Infrastructure Assessment, Phase I, Report 2000, have 
been well documented in a number of independent studies over the last 
decade and most recently in the fiscal year 2000 Report to Congress of 
the Panel to Assess the Reliability, Safety, and Security of the United 
States Nuclear Stockpile. The National Nuclear Security Administration 
is putting management systems in place to assure that infrastructure 
problems are identified early and that adequate funds are allocated to 
address the problems. Past management practices in this regard were 
inadequate for prioritizing projects and identifying how much money (if 
any) was being used to fix the problems. We are also working to 
incorporate into the fiscal year 2000 and future-years programming the 
necessary funding sufficient to begin to reverse this situation for the 
important stockpile work ahead.

               maintaining critical skills and expertise
    22. Senator Allard. Both at the national labs and at the production 
facilities, there is a great risk of losing critical scientific, 
manufacturing, and machining skills and expertise. The average age of 
DOE's workforce is close to retirement age, with some operations having 
only one engineer or one machinist deep in some critical skill areas.
    I know you may not be able to get into great detail, but could you 
give use some thoughts on this problem?
    Secretary Abraham. While many critical skills in the weapons 
complex are at risk, the NNSA believes the situation is manageable with 
the application of a national commitment to our mission, as well as 
continued management attention and resources. Last year, NNSA and DOD 
provided a joint report regarding nuclear expertise retention measures 
as required by section 3163 of the National Defense Authorization Act 
for fiscal year 2000. The report describes current and projected 
critical skills mix and the plans for maintaining essential nuclear 
weapons expertise at each of our nuclear weapons sites. NNSA will 
closely monitor the implementation of these plans which were called for 
by the Congressionally chartered Commission on Maintenance of Nuclear 
Weapons Expertise in its 1999 report. The new management and operating 
contracts for the Pantex, Y-12, and Kansas City Plants as well as those 
with the University of California for the Los Alamos and Lawrence 
Livermore National Laboratories have provisions that are designed to 
improve recruitment and retention and focus management attention 
directly on this critical people issue.

           role of innovative technologies in lowering costs
    23. Senator Allard. As I mentioned in my opening statement, DOE's 
environmental technology development programs were at an 8-year low and 
the only science and technology program in DOE's budget to decrease in 
last year's budget
    Can you comment on the importance of these innovative technologies 
and provide us a commitment to funding these programs at a proper 
level?
    Secretary Abraham. I agree that sound science and innovative 
technology are critical if we are to solve the complex technical 
problems we face in cleaning up the DOE complex. DOE's research and 
development projects are beginning to bring results by producing 
solutions to problems that were previously intractable or by deploying 
new more effective or safer technologies. For example, at Oak Ridge, 
using a combination of new robotics and retrieval techniques, we 
successfully removed the radioactive wastes from radioactive waste 
tanks and are now preparing those tanks for closure. Not only did it 
get the job done, it reduced worker exposure, it minimized the amount 
of waste created, and accelerated the schedule.
    We are still in the process of developing the President's fiscal 
year 2002 budget request. I will keep your concerns in mind as we 
develop the final budget allocation for the Environmental Management 
program.
                                 ______
                                 
             Questions Submitted by Senator Tim Hutchinson
               changing the security culture and the labs
    24. Senator Hutchinson. Mr. Secretary, despite the horrendous 
security lapses that occurred at the nuclear labs over the past 8 
years, I have been careful not to level broad criticism at the 
employees of Los Alamos, Livermore, or Sandia. After all, our national 
security is ultimately dependent upon the work of the world-class 
scientists who work there.
    But that is not to say that changes in the way the labs operate are 
not needed. Its been less than 2 years since our friend and former 
colleague, Senator Rudman, reported to the Congress on the findings of 
his examination of security at the labs. According to Senator Rudman, 
at the root of this problem lay a ``culture'' resistant to the burdens 
required of adequate security.
    Changing the culture at the lab would seem to me to be a 
particularly difficult challenge. It's not simply a matter of adding 
locks or air-gapping computers. You must encourage a revolutionary way 
of thinking among people who are used to the old-way of doing things, 
but in a way that does not stifle the lab's unique, creative 
environment.
    How are you planning to address this challenge?
    Secretary Abraham. As you indicated in your question, changing the 
culture at our laboratories is a difficult, yet important challenge, 
and I have begun to take some steps to address this matter. General 
Gordon and I have had discussions on this issue, and I intend to 
discuss it more fully with each of our laboratory directors, as well. 
One idea that has surfaced is the creation of an ``integrated security 
management program,'' similar to our Integrated Safety Management 
Program, which I understand has been very successful in changing safety 
awareness. My understanding is that such a program would approach 
security within the context of the way our scientists and engineers go 
about their daily work activities. In other words, concern for security 
becomes intrinsic to the job, much like safety, which is now a 
reflexive consideration for our scientists and engineers. I believe 
that this approach could result in the necessary changes without 
damaging the spirit of innovation and hard work at the labs. These 
changes must filter down from the top, so therefore it is important 
that they be made a part of management's job as well. I believe we have 
made progress in that direction with the new contracts with the 
University of California, which contain a number of security-directed 
initiatives. Finally, I believe that providing our laboratories with a 
modern cyber-security infrastructure, will enable a swifter evolution 
to a culture in which security is considered not a hindrance, but 
second nature.

           stockpile stewardship cost overruns/schedule slips
    25. Senator Hutchinson. Mr. Secretary, I firmly believe that the 
rigorous debate that preceded Senate's overwhelming rejection of the 
Comprehensive Test Ban Treaty (CTBT) was worthwhile, as it focused the 
Senate's attention on a number of problems affecting the Department's 
Stockpile Stewardship Program (SSP).
    While the Senate has long since turned its attention to other 
matters, a number of those problems dogging the Stockpile Stewardship 
Program linger.
    Would you please describe any SSP-related cost overruns or schedule 
slips that you are aware of, and what corrective actions you feel are 
needed to put those programs back on track?
    Secretary Abraham. The cost overrun and schedule slip in the 
Stockpile Stewardship Program which first comes to my mind is in 
connection with the construction of the National Ignition Facility 
(NIF) at the Lawrence Livermore National Laboratory. However, I believe 
the corrective actions to put NIF back on track are well under way. A 
new cost and schedule baseline was submitted to Congress last year and 
a number of specific actions have been taken to strengthen management 
of the project at all levels. The Department has detailed its actions 
in a series of congressionally mandated reports and independent 
assessments. The National Nuclear Security Administration is currently 
preparing a report to Congress validating the path forward and 
certifying that current project milestones have been met on schedule 
and on cost.
    Other major challenges that remain include the reestablishment of a 
pit manufacturing capability and the refurbishment of the W87. The 
initial plan in 1998 for establishing a pit manufacturing capability at 
the Los Alamos National Laboratory estimated the cost to manufacture 
and certify replacement pits for the W88 warhead at $1.1 billion with 
the first certified pit to be delivered in fiscal year 2004. The 
current planning estimate is $1.75 billion with delivery in fiscal year 
2009. The NNSA is working to bring the 2009 date to 2007 through the 
peer review process and project management assessments. The reasons for 
the changes in cost and schedule mostly involve the challenging 
technological problems and unknowns of reestablishing a capability 
which has not existed since 1988 at Rocky Flats. We have taken steps to 
improve project management across the board, in DOE and at LANL to 
forcibly attack this challenge. The Los Alamos National Laboratory has 
established a detailed plan under a new project manager and the 
National Nuclear Security Administration has established a single 
headquarters Pit Project Office to oversee and track project execution.
    Although the W87 Life Extension Program delivered the first 
refurbished warhead on time to the Air Force in November 1999, the rate 
of refurbishment since that time has been less than expected. 
Reprocessing problems and safety concerns at the Pantex Plant as well 
as problems with some of the rebuilt components have caused delays. 
Delivery has been improved. I understand, but only with the addition of 
significant overtime and heroic dedication of our laboratory and 
production personnel. The lessons learned with the W87 refurbishment 
are of particular importance to us as the refurbishment of the B61-7/
11, W76 and W80 are in the design and engineering development phases 
anticipating large increases in work throughout the aged complex.
    I will be closely following the progress of these programs as well 
as any other major programs which could suffer significant delays or 
cost overruns. I will keep the Congress fully informed of any potential 
problems and the Department's efforts to get them back on track. 
Smaller programs or projects within the Stockpile Stewardship Program 
which are behind schedule and/or over cost are reported to Congress as 
a part of the normal budget justification, further enhanced by a 
revised project management oversight process.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions
                   university of california contract
    26. Senator Sessions. What is the current status of the National 
Laboratory contracts with the University of California? What type of 
additional security measures have been taken to prevent the lapses that 
occurred last year?
    Secretary Abraham. The Department of Energy's contracts with the 
University of California for the management and operation of the 
Lawrence Livermore National Laboratory and the Los Alamos National 
Laboratory were extended in January 2001 for a 3-year period to 
September 30, 2005. The restructured contracts require the University 
of California to implement management improvements and enhance 
performance and oversight in the areas of accountability, safety, 
security, project management and critical skills. The safeguards and 
security improvement initiative includes hiring outside experts to 
strengthen oversight: implementing a management system that makes 
security an integral and visible part of all work planning and 
execution; and using a detailed assessment and follow-on action 
planning to bring practices up to required levels. In addition, a new 
contract provision puts the University's performance fee specifically 
at risk for security infractions.

    27. Senator Sessions. Has a 100 percent accounting of all 
classified material at the University of California managed 
laboratories been conducted? If not, when can we expect such action to 
be taken?
    Secretary Abraham. There is no Department of Energy requirement for 
a 100 percent accountability of all classified material. This is 
consistent with the policy requirements of the National Industrial 
Security Program policy which applies to all executive departments 
which protect classified information.
    The University of California managed laboratories have completed 
the accountability requirements set forth in the additional DOE 
requirement to have accountability of ``any compilation of nuclear 
weapons design and testing information contained within removable 
computer media that contains nuclear weapons design, use control 
systems or vulnerability information.''

                            mox fuel program
    28-29. Senator Sessions. Will the Department of Energy be taking 
another look at the mixed oxide fuel issue under your leadership at 
DOE? How effective could a MOX fuel program be in reducing the amount 
of weapons grade plutonium in the stockpile?
    Secretary Abraham. The primary goal of the National Nuclear 
Security Administration's plutonium disposition program is to get rid 
of surplus Russian weapon-grade plutonium. As called for in the U.S.-
Russian Plutonium Management and Disposition Agreement, the United 
States will irradiate 25.5 metric tons as mixed oxide fuel and 
immobilize 8.5 tons. Russia will irradiate all 34 metric tons as mixed 
oxide fuel. Despite the U.S. reliance on two disposition technologies, 
irradiating surplus plutonium as mixed oxide fuel in reactors is key to 
enabling plutonium disposition to proceed in both countries. In order 
to reduce program costs and use to a greater extent, existing 
facilities, the NNSA will initiate a review of the elements supporting 
the MOX program.
    Irradiation of mixed oxide fuel is a proven technology, already 
used in Europe, and can be expected to be a viable method for disposing 
of surplus weapon-grade plutonium in both the United States and in 
Russia.


    30. Senator Sessions. I would like to extend my support for the 
nationally important Metalcasting Industry of the Future program. As a 
result of the Department of Energy--Office of Industrial Technology and 
industry partnership, research performed at the University of Alabama 
and the University of Alabama--Birmingham has allowed foundries across 
the country to save energy, reduce solid waste, and increase 
competitiveness. The work at UAB with the Lost Foam Casting Consortium 
has been particularly successful. Coming from a state in the top 10 of 
metalcasting employment, this is an important program to me. Can you 
detail the Department of Energy's future plans and support for this 
great partnership?
    Secretary Abraham. The Department of Energy (DOE) will continue to 
support the Metalcasting Industries of the future program. Through 
cost-shared, public-private partnerships, this program is developing 
technologies that provide significant energy savings, minimize solid 
waste, and improve productivity. Universities, such as the University 
of Alabama and the University of Alabama-Birmingham, play a key role in 
developing and facilitating the application of advanced technologies, 
such as lost foam casting. Through the continued partnership efforts of 
this program, the metalcasting industry will be able to: (1) produce 
lightweight, high-strength castings for automotive and other 
applications, thereby improving transportation fuel efficiency; (2) 
produce complex castings that meet increasingly demanding customer 
specifications and require few-to-no post-casting operations; and (3) 
expand opportunities for producing castings from the full range of 
ferrous and nonferrous metals.
                                 ______
                                 
               Questions Submitted by Senator Carl Levin
                   university of california contract
    31. Senator Levin. The new contract between the University of 
California and the Department of Energy contains a number of new 
clauses that should improve the University's management practices. Do 
you support the recent extension of the University of California 
contract to operate the Los Alamos National Laboratory and the Lawrence 
Livermore Laboratory?
    Secretary Abraham. I have reviewed the key principles of the 
extended contracts and I believe the contracts provide much more 
accountability than in the past. The contracts give NNSA some new tools 
to ensure that senior University of California management is focused on 
fixing problems and meeting our challenging goals. Among the basic 
elements of the new contracts are the creation of a University Vice 
President for Laboratory Management; the requirement to obtain outside 
expertise in security and project management; a clause allowing the 
NNSA Administrator, with approval of the Secretary, to remove the top 
laboratory managers from work on the contract for performance failure; 
and performance expectations for operational priorities including more 
rigorous nuclear facility operations, integrated safeguard and security 
management, and improved recruitment and retention. If the University 
fails to meet DOE/NNSA Environmental, Safety, and Health or Safeguard 
and Security requirements, all or part of their fee may be deducted. In 
addition, in these and other administrative and technical areas such as 
project management, performance ratings less than ``good'' result in 
fee reductions.

                           project management
    32-34. Senator Levin. Former Deputy Secretary of Energy Glauthier 
started a much-needed effort to restore the project management 
discipline at DOE. Will you continue to support this effort? Will you 
look into the possibility of the current Office of Engineering and 
Construction Management (OECM) reporting to you or the Deputy 
Secretary? Will you also work to provide the project management offices 
within the various DOE programs the financial resources, training, and 
corporate commitment to do their jobs?
    Secretary Abraham. I am aware that the Department has initiated a 
number of important steps toward restoring its project management 
discipline. I intend to continue to give this effort my full support. I 
have seen the recent National Research Council (NRC) report that is 
supportive of the Department's initial steps. In fact, in order to 
become more familiar with this important issue, I have invited the 
chair of NRC's committee on improving DOE's project management, Dr. 
Kenneth Reinschmidt, to meet with me to discuss his report in detail. I 
am most interested to learn more about their thoughts on how best to go 
about improving this important DOE responsibility. Even before I meet 
with Dr. Reinschmidt, however, I can assure you that I do intend to 
maintain the Department's support of this important effort, in line 
with the concerns that continue to be expressed by Congress. Like you, 
I am concerned that OECM should have unquestioned access to the 
Principal Secretarial Offices with which they deal and have the clout 
required to get their job done. I understand that under the previous 
administration the OECM, while part of the CFO's office, also reported 
directly to the Deputy Secretary on certain issues. Once my staff is 
fully in place and the selection and confirmation process has been 
completed, the new Deputy Secretary will be fully involved in 
resolution of this issue. I must first conduct a review of the roles, 
responsibilities and authorities of my corporate offices. That said, 
rest assured that I intend to ensure strong corporate commitment to the 
project management initiative, with Department-wide leadership by OECM.

              price-anderson act indemnification authority
    35-37. Senator Levin. The Department of Energy's Price-Anderson Act 
authority to provide indemnity protection for nuclear hazards expires 
on August 1, 2002, unless again renewed by Congress. In l999, the 
Department submitted a Report to Congress indicating the act should be 
extended again in substantially its present form. Does the Department 
continue to support reauthorization of this important Act? Is Price-
Anderson Act reauthorization a priority of the Department's legislative 
agenda for 2001? The current indemnification authority under Price 
Anderson expires in 2002. Should this authority be extended this year 
or can it wait until next car? What are the consequences of waiting 
until next year?
    Secretary Abraham. The Department supports reauthorization of the 
Price-Anderson Act because indemnification of DOE contractors is 
essential to the achievement of DOE's statutory missions in the areas 
of national security, energy policy, science and technology, and 
environmental management.
    Reauthorization of the Price-Anderson Act should be a priority for 
Congress this year in order to eliminate any potential for the type of 
interruption in coverage that occurred with the last reauthorization in 
1988. Delaying renewal until next year could have the consequence of 
introducing uncertainties into DOE's procurement negotiations with its 
contractors before indemnification expires on August 1, 2002--only 17 
months away. If the act is not renewed before the August 1, 2002 
deadline, a gap in indemnification coverage would occur in new and 
extended contracts. A gap could delay the execution of contracts and 
the consequent performance of work and transportation of materials. DOE 
and its contractors would need to seek other methods of insurance 
coverage and indemnification during the period of any gap. DOE has 
determined that there are no satisfactory alternatives to Price-
Anderson Act indemnification.
    As described in DOE's 1999 Report to Congress, in a few cases, DOE 
has used statutory authority under Public Law 85-804 or under Sec. 162 
of the Atomic Energy Act to indemnify certain DOE activities that 
involve the risk of a nuclear incident. These alternative statutory 
indemnities, however, are cumbersome to administer; do not guarantee 
omnibus coverage of subcontractors, suppliers and other persons; and 
lack the procedural mechanisms that ensure prompt and equitable 
compensation for the public. Moreover, private insurance is expensive 
and most likely is not available for many DOE activities.
    In general, DOE continues to support the recommendations and 
analysis in DOE's 1999 Report to Congress on the Price-Anderson Act. 
However, with respect to Recommendation four concerning the continued 
exemption of nonprofit contractors from civil penalties for nuclear 
safety violations, consideration might be given to the approach used 
for violations of safeguards and security regulations. Section 3147 of 
the National Defense Authorization Act for Fiscal Year 2000 adopted a 
provision allowing the imposition of civil penalties on nonprofit 
contractors for safeguards and security violations up to the total 
amount of fees paid by DOE to that entity in a fiscal year.
    I look forward to working closely with members of both parties and 
with individuals from inside and outside government to secure the early 
renewal of the Price-Anderson Act.

                     21st century truck initiative
    38. Senator Levin. As you may know, the Army initiated the 21st 
Century Truck Initiative in 1997 as a means to improve medium and heavy 
truck technology to benefit the military and the civilian truck 
industry. This is particularly important to the Army since it owns the 
government's largest fleet of trucks, with over 250,000 vehicles in its 
fleet, and since advanced truck technologies are critical to the Army's 
transformation strategy that is intended to protect the nation's 
security well into the 21st century.
    The 21st Century Truck Initiative involves several agencies, 
including the Department of Energy, the Department of Defense, the 
Department of Transportation and the Environmental Protection Agency.
    How will you ensure the achievement of the original intent of this 
program, namely that it should meet both military and civilian needs, 
and that the Department of Defense continues to play a leading role in 
the management of the program in order to ensure its success?
    Secretary Abraham. I would like to express the Department of 
Energy's appreciation to you for the support provided for research and 
development programs designed to produce the breakthrough technologies 
required for more fuel efficient vehicles. This support is important to 
both the Partnership for a New Generation of Vehicles and the 21st 
Century Truck Program, which is aimed at developing the technologies 
needed to produce trucks and buses with higher fuel economy, lower 
emissions and enhanced safety.
    We are pleased about the progress made to date in building the 
foundation for this new industry/multi-agency truck technology program. 
The number of industry participants in the partnership has increased 
from the original 9 to 16 companies. They are: Allison Transmission; 
BAE SYSTEMS Controls; Caterpillar, Inc.; Cummins, Inc.; 
DaimlerChrysler; Detroit Diesel Corporation; Eaton Corporation; 
Freightliner LLC; General Motors Corporation; Honeywell, Inc.; 
International Truck and Engine Corporation; Mack Trucks, Inc.; NovaBUS 
Incorporated; Oshkosh Truck Corporation; PACCAR, Inc.; and Volvo of 
North America. It is my plan to meet personally with the principals of 
these partner companies within the next 90 days.
    This program is guided by a Partnership Coordinating Committee, 
which includes not only senior officials from the companies, but also 
executives from our Government partners the Departments of Defense and 
Transportation, and the Environmental Protection Agency. The Assistant 
Secretary of the Army for Acquisition, Logistics & Technology serves as 
the Vice Chair of this committee for the Department of Defense. I will 
shortly be sending letters to the Secretary of Defense, the Secretary 
of Transportation, and the Administrator of the Environmental 
Protection Agency to assure them of my commitment to this important 
program, and to encourage their continued support.
    Over 65 scientists and engineers from industry and Government have 
completed an extensive technical plan that will guide the development 
and implementation of the program. We have assured that this plan 
incorporates not only commercial vehicles, but military vehicles as 
well. Further, we are relying on the Army's National Automotive Center 
to continue its work to carefully define the requirements for military 
vehicles as they apply to the Army transformation initiative.
    Together with the Department of Defense, the Department of 
Transportation and the Environmental Protection Agency, we have created 
an interagency committee to enhance coordination among the Federal 
members of this new partnership. The committee is comprised of a senior 
representative from each of the agencies involved and is an integral 
part of our Government Program Coordination Office. Mr. Dennis Wend of 
the National Automotive Center is the Department of Defense's 
representative.
    Further, to assure enhanced cooperation and communication among the 
Federal partners, we have mutually agreed on the duties and 
organizational structure of the staff component of the Program 
Coordination Office. Mr. Thomas Gross, who serves as the Department of 
Energy's Deputy Assistant Secretary for Transportation Technologies and 
has extensive experience in partnership activities with the private 
sector, serves as the Executive Director of this office. The National 
Automotive Center, as well as the Department of Transportation, has 
assigned staff members to work within this office, and we anticipate 
similar action by the Environmental Protection Agency. I have also 
asked Mr. Gross to convey to the members of this working team my 
personal commitment to the program, and to request, as appropriate, 
enhanced participation by the agencies to ensure that we build on the 
initial successes of this partnership.
    The Program Coordination Office has gotten off to a strong start by 
hosting an extensive review of federally-supported R&D programs which 
are contributing to the 21st Century Truck goals. This review had the 
full participation of all of the agencies. We are particularly 
appreciative of the strong leadership role that the Department of 
Transportation has taken in organizing this activity. The industry 
participants have been actively engaged in this two-part review process 
and have been highly complimentary of the results.
    In summary, I believe this important program is going well. The 
Department of Energy looks forward to working with the Congress to 
support Department of Defense activities which will be vital for the 
success of the 21st Century Truck Program, as well as the future 
responsiveness of our Nation's defense system.
                                 ______
                                 
            Questions Submitted by Senator Edward M. Kennedy
                                  iraq
    39. Senator Kennedy. How much leverage does Iraq have over the U.S. 
and the international community with their oil exports, especially due 
to the current fuel crisis?
    Secretary Abraham. Iraq's oil production is subject to United 
Nations' sanctions. All oil export revenues are deposited into a U.N.-
administered account and disbursed by the U.N. for Iraq's purchase of a 
range of civilian goods. This is known as the oil-for-food program, but 
Iraq is permitted to purchase more than food and medicine. Some of the 
revenues collected can be used for repairs and refurbishment of the oil 
fields in order to maintain oil production levels. The U.N. Security 
Council reviews the oil-for-food program every 6 months. There has been 
a fairly predictable pattern that at the end of each 6-month period 
when the oil-for-food program is up for renewal, Iraq halts or slows 
exports from the normal level of about 2.2 million barrels per day 
(bpd). In December 2000, Iraq ceased exports for about a month. The 
price of oil, rather than increasing as anticipated, actually declined 
since the market was perceived to be in balance. Also, other OPEC 
producers indicated a willingness to increase production, if necessary. 
Again, in June 2001, Iraq ceased exports for a time. Other OPEC 
producers indicated that they would increase production, if necessary, 
to offset the decline. The price of oil did not materially change and 
no additional production was necessary. Thus, even though Iraqi exports 
account for about 5 percent of world oil trade, Iraq's erratic exports 
have not affected the world oil market significantly, due to a variety 
of factors including sufficient spare capacity in other OPEC and non-
OPEC countries to make up any short-fall in production and the belief 
that Iraq's suspension would be short-lived. It is possible that oil 
prices would have been lower if Iraqi exports had not ceased. For the 
U.S., oil imports from Iraq have fluctuated to somedegree. For example, 
Iraqi oil imports averaged 973,000 bpd in May; 740,000 bpd in June; and 
697,000 bpd in July.


    40. Senator Kennedy. Are we doing anything to prevent them gaining 
this leverage?
    Secretary Abraham. In recent months, U.S. efforts have been 
directed to modifying the U.N. oil-for-food regime so as to benefit the 
Iraqi people, while maintaining the focus on the military items and 
technologies that must be controlled so that Iraq cannot restore its 
weapons of mass destruction programs or threaten its neighbors. This 
approach has been endorsed by the U.K. and is under active discussion 
with other key members of the U.N. Security Council. During the most 
recent renewal of the oil-for-food program in June, Iraq objected to 
imposition of new sanctions regime to replace the existing sanctions 
mechanism. Iraq stopped its exports in order to gain leverage over the 
situation. The oil market remained calm during the Iraqi oil stoppage 
due to sufficient supplies in the marketplace as well as reassuring 
statements from other OPEC producers that they would make up the 
differential, if necessary, and a belief among oil traders that the 
stoppage would be short-lived. Russia blocked the Security Council's 
approval of a new sanctions regime. The existing oil-for-food program 
was renewed until November 30. The U.S. will continue to press for 
changes in the Iraqi sanctions regime.


    41. Senator Kennedy. Over the past several years the Department has 
supported the Metalcasting Industry of the Future program, and it has 
been a priority of mine, as well. Some of the energy R&D it sponsors is 
carried out in Massachusetts at Worcester Polytechnic Institute--a 
national leader in metalcasting and heat treating research. The DOE-OIT 
partnership with industry strengthens our nation's manufacturing base 
and national defense because 10 percent of metalcast products go 
directly into military applications.
    Given the importance of this program, will the new Administration 
continue to support this program?
    Secretary Abraham. First and foremost, it is important to note that 
continued support for all applied research projects in DOE, including 
those conducted for the Metalcasting Industries of the Future program, 
will be subject to review based on new R&D investment criteria, as 
discussed in the President's Management Agenda. Support for individual 
projects will continue if proper justification can be provided for: the 
Federal role in the project; how well the project is planned and 
managed; and the effectiveness, efficiency, and benefits of the 
project.
    At the present time, the Department of Energy (DOE) plans to 
support the Metalcasting Industries of the Future program. Through 
cost-shared, public-private partnerships, this program is developing 
technologies that provide significant energy savings, minimize solid 
waste, and improve productivity. Universities, such as the Worcester 
Polytechnic Institute in Massachusetts, play a key role in developing 
and facilitating the application of advanced technologies, such as 
semi-solids processing. Through the continued partnership efforts of 
this program, the metal casting industry will be able to: 1. produce 
lightweight, high-strength castings for automotive and other 
applications, thereby improving transportation fuel efficiency; 2. 
produce complex castings that meet increasingly demanding customer 
specifications and require few-to-no post-casting operations; and 3. 
expand energy efficient opportunities for producing castings from the 
full range of light weight metals.
    The Heat Treating Technology Roadmap was produced in 1997 by the 
Heat Treating industry in partnership with the Department of Energy. 
The Center for Heat Treating Excellence (CHTE) was established in 1999 
at Worcester Polytechnic Institute to address research priorities 
identified in the roadmap. The CHTE, comprised of over 60 corporate 
members, is applying fundamental research to solve industrial problems 
and to advance heat treating technology. Through the DOE Office of 
Industrial Technologies Supporting Industries program, the CHTE has 
recently been selected for negotiation for two projects addressing 
improved energy efficiency in the heat treating industry.

  compliance with energy employees occupational illness compensation 
                              program act
    42. Senator Kennedy. Last October, a bipartisan majority in 
Congress overwhelmingly passed the Energy Employees Occupational 
Illness Compensation Program Act. The Act compensates civilian workers 
who contracted specific occupational diseases while involved in the 
production or testing of America's nuclear arsenal.
    Under the act, the Department of Energy has specific 
responsibilities to produce all relevant information pertaining to 
worker exposures, including health records for certain workers exposed 
to radiation.
    What will you do to ensure compliance by the Department with this 
important requirement?
    Secretary Abraham. The Department of Labor and the Department of 
Energy have been assigned separate duties under the Energy Employees 
Occupational Illness Compensation Program Act. The Department of Energy 
has several important responsibilities. One of these is to provide 
records needed to fairly process claims. These come in the form of (1) 
employment records used to verify a worker's employment at a Department 
of Energy or atomic weapons facility; and (2) exposure and health 
records that will help a worker establish whether a beryllium disease 
or cancer was caused by workplace exposures. The Department of Energy 
has established the Office of Work Advocacy to manage the Department's 
responsibilities under the law and it is providing our full cooperation 
toward that effort. The Office of Worker Advocacy will work closely 
with staff from the Department of Energy Field Offices and contractors 
who will be responsible for record searches to ensure that efforts are 
thorough and coordinated throughout the Department of Energy complex. 
We will provide the field offices with the financial and personnel 
support they may need to ensure that the maximum effort is given to 
this task.

         identification and notification of potential claimants
    43. Senator Kennedy. How will you identify and notify potentially 
eligible claimants of the availability of compensation under the 
program?
    Secretary Abraham. The Department of Energy is working closely with 
the Department of Labor to identify and notify claimants who may be 
eligible for Department of Labor benefits under the act. We have 
established joint ``resource centers'' at major Department of Energy 
sites which will serve as outreach and assistance centers for workers 
and their families. Centers are located in North Augusta, South 
Carolina; Espanola, New Mexico; Idaho Falls, Idaho; Las Vegas, Nevada; 
Oak Ridge, Tennessee; Paducah, Kentucky; Portsmouth, Ohio; Kennewick, 
Washington; Westminster, Colorado; and Anchorage, Alaska. Offices are 
fully staffed with experienced and trained personnel. In addition, we 
are sending staff to provide temporary assistance in locations not 
served by a resource center. Moreover, we recently completed more than 
30 public meetings across the Nation to inform the public about the 
program, and have sent several mailings to workers who could 
potentially benefit from the program. We are also working with and 
providing assistance to various Department of Energy labor unions as 
well as the staff of our medical monitoring projects to reach out and 
identify workers. We recognize the need for continued and ongoing 
outreach so that as many people as possible are aware of the program.

                         issuance of regulation
    44. Senator Kennedy. The Department of Energy has established an 
Office of Worker Advocacy to assist workers who are not covered by the 
act to file claims under state workers' compensation programs.
    When will the Department issue regulations to govern the operation 
of this Office?
    Secretary Abraham. Under Subtitle D of the Energy Employees 
Occupational Illness Compensation Program Act, the Department of Energy 
is responsible for a program to assist contractor workers with state 
workers' system compensation claims. The Department is required to 
submit a claimant's application for potential state workers' 
compensation to a panel of physicians, if provided for in an agreement 
with the state, and if the claimant submits reasonable evidence of a 
DOE contractor employment related illness. Physicians on the panel will 
review contractor workers' medical records to determine if workplace 
exposures caused illnesses. Panel members have been selected by the 
Department of Health and Human Services, and assigned to panels. The 
Department of Energy has drafted a proposed rule setting out procedures 
for operation of the physicians panels. The proposed rule was issued 
for public review and comments through November 8, 2001. The Department 
is attempting to have the rule in effect as soon as possible. Although 
the panels are not yet in place, the Department is preparing contractor 
worker files so that they will be ready for evaluation as soon as the 
panels are formed.

                           director position
    45. Senator Kennedy. When will you fill the position of Director of 
the Office?
    Secretary Abraham. The Acting Assistant Secretary for Environment, 
Safety and Health currently serves as the Acting Director of the Office 
of Worker Advocacy. When a new Assistant Secretary is confirmed, that 
person will evaluate candidates for the position of Director.

                         experience of director
    46. Senator Kennedy. Will you select a person who has experience 
with occupational illnesses, worker safety and health and workers' 
compensation claims?
    Secretary Abraham. In evaluating candidates, the Department will 
consider a person's experience, background, and knowledge in the areas 
of public health, occupational medicine, and workers' compensation 
issues.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka
                       infrastructure maintenance
    47. Senator Akaka. General Shalikashvili's recent report to the 
President on the Comprehensive Test Ban Treaty stressed the importance 
of having first-class people at the DOE labs and production facilities. 
He said, ``it is important to be sensitive to the impact of security 
measures on people's work environment and to find creative ways to 
mitigate any adverse effects.''
    Work environment includes facilities and work conditions. Failure 
to provide adequate funding for basic maintenance needs at some DOE 
facilities has gone on for as much as a decade. As a result, buildings 
are literally falling down. Conditions apparently require some workers 
to wear hard hats to work because parts of the ceiling are falling in.
    It is very difficult to convince people that their work and effort 
is valued when they are asked to work in such poor working conditions. 
Realize, too, these same people are being wooed away at great numbers 
into the private sector.
    Will you include infrastructure maintenance in upcoming DOE budget 
priorities and, if so, how significant a problem is this in your view?
    Secretary Abraham. Facility and infrastructure funding is a 
priority for the National Nuclear Security Administration's Office of 
Defense Programs now and for the foreseeable future. The facilities and 
infrastructure problems of the nuclear weapons complex as set forth in 
the Defense Programs Facilities and Infrastructure Assessment, Phase I, 
Report 2000 are significant. These problems have been confirmed by a 
number of independent assessments, including: Office of the Secretary 
of Defense Program Analysis and Evaluation Review (1999); Defense 
Programs Facility Maintenance Study, Phase I and II (1998); Stockpile 
Stewardship Program 30-Day Review (1999); and most recently, the Fiscal 
Year 2000 Report to Congress of the Panel to Assess the Reliability, 
Safety, and Security of the United States Nuclear Stockpile. The 
instructive points common to all the studies and analyses are that the 
nuclear weapons complex is old, facility deterioration is accelerating, 
preventive maintenance and recapitalization have been underfunded for a 
long time, and that looking ahead, stabilizing the nuclear weapons 
complex facility and infrastructure condition will be a priority in 
future budget requests to Congress. Correcting infrastructure problems 
will help ensure that our work is carried out in a manner that protects 
the health and safety of our workforce and neighbors. The NNSA is 
putting management systems in place to assure that infrastructure 
problems are identified early and that adequate funds are allocated to 
address the problems. Past management practices in this regard were 
inadequate for prioritizing projects and identifying how much money was 
being used to fix the problems. We are also working to incorporate into 
the fiscal year 2002 and future-years programming the necessary funding 
sufficient to begin to reverse this situation for the important 
stockpile work ahead.


    48. Senator Akaka. Congress established the semi-autonomous 
National Nuclear Security Administration (NNSA) within DOE in October 
1999 for several reasons. One reason was to correct the confused lines 
of authority and responsibility within DOE's nuclear weapons program. 
In October 2000, the Deputy Secretary of Energy reorganized the 
reporting relationships between DOE headquarters and operations offices 
by eliminating ``dual-hatting'', or staff serving in both DOE and NNSA 
positions simultaneously.
    The recent GAO report ``Improved Management Needed to Implement 
Stockpile Stewardship Program Effectively'' cites that these changes 
have not fully been implemented. Additionally, agreements covering 
coordination between the NNSA and other DOE program offices have not 
been defined or negotiated.
    Are these reorganization plans still being implemented under this 
administration, and if so, do you see these changes being fully 
implemented soon?
    Secretary Abraham. Yes, General Gordon and I have discussed this 
issue and he will be implementing a headquarters reorganization that 
addresses many of the issues not yet resolved. The reorganization will 
focus attention on mission accomplishment and consolidate NNSA program 
management and support. In addition, the Administrator is working on a 
plan to address roles and responsibilities issues between headquarters 
and field elements.
    A full implementation plan for the reorganization will be included 
in the report to Congress required by the Defense Authorization Act for 
Fiscal Year 2001. This report, due May 1, 2001, will include NNSA's 
plan for assigning roles and responsibilities to and among the 
headquarters and field organizational units of the NNSA.
    A number of agreements between NNSA and other DOE offices have been 
executed, including ones covering procurement, counterintelligence, and 
hearings and appeals functions. Others are in process. Additionally, 
the Department is reviewing all internal DOE Orders, updating them to 
reflect the appropriate relationship between NNSA and the rest of DOE.

                       pit manufacturing facility
    49. Senator Akaka. In his report on the Comprehensive Test Ban 
Treaty, General Shalikashvili outlines several areas which require 
special attention by the Department of Energy to maintain the Stockpile 
Stewardship Program and manage future risks.
    Whether one favors the CTBT or not, the U.S. still needs a 
Stockpile Stewardship Program. In addition to the personnel and 
building infrastructure issues, several key decisions will need to be 
made. These include whether the pit production capabilities at Los 
Alamos will be adequate for the long-run, or whether a larger facility 
should be built elsewhere.
    Have you had the opportunity to review his concerns and 
recommendations, and if so, what will your office do to address them?
    Secretary Abraham. Some of the recommendations in the Shalikashvili 
report concerning the Stockpile Stewardship Program, for example, an 
infrastructure revitalization fund, will require increased funding over 
the coming years and I will work to tackle this and other warning signs 
on the fragile nature of our weapons complex. Many of the 
recommendations in the report are already being carried out by the 
NNSA.
    For example, the NNSA is in the process of establishing a senior 
level Advisory Committee, consistent with the requirements of the 
Federal Advisory Committee Act. NNSA is also working on a 5-year budget 
consistent with section 3253 of the National Defense Authorization Act 
for Fiscal Year 2000. This past year, the Nuclear Weapons Council 
reviewed and approved the refurbishment of three weapons types key to 
the enduring health of the stockpile; and NNSA is well into the 
detailed planning and programming to deliver on these DOD requirements.
    The Nuclear Weapons Council also supports the position that the 
results of NNSA's pit aging studies are necessary before determining 
long-term pit production capacity. The outcome of the ongoing 
Quadrennial Defense Review, initiated by the Secretary of Defense to 
examine the role of nuclear weapons in U.S. defense policy, will also 
be an important factor in determining the size of a pit manufacturing 
facility. However, NNSA has initiated long-lead work necessary to build 
a pit facility, if required.

                               ig report
    50. Senator Akaka. On September 28, 2000, the Inspector General for 
the Department of Energy issued a report entitled, ``Allegations 
Concerning the Department of Energy's Site Safeguards and Security 
Planning Process,'' (DOE/IG-0482). In this report, the IG disclosed 
significant problems in the SSSP process. The IG found significant 
problems in the manner in which SSSPs were reviewed and SSSP QA issues 
were closed. Specifically, there were substantial differences in what 
was being reported as the actual status of security at Department sites 
by the SSSP QA function, and what was being reported by the cognizant 
sites. In the final report, the Director agreed with the conclusions, 
but did not commit to implementing the recommendations.
    Given the importance of properly assessing threats and risks at the 
Department's nuclear sites, can you describe what specific steps have 
been taken to address the findings of the IG report?
    Secretary Abraham. The Department implemented a multi-step approach 
to address the findings and recommendations in the IG report. First, 
the Department reviewed each finding to determine the basis for the 
issue raised. Second, the department examined the relevant policies, 
manuals, guides, procedures and program execution to ascertain what 
modifications were necessary to mitigate the basis for the finding and 
subsequent recommendation. Third, suggested modifications were 
evaluated to ensure that the proposals would satisfactorily address the 
finding and that new programmatic weaknesses would not be introduced by 
their implementation. Fourth, following evaluation, the appropriate 
modifications to departmental programs are being implemented.
    Specifically, the relevant DOE Order, DOE O 470.1, ``Safeguards and 
Security Program,'' is being revised to clearly delineate the roles and 
responsibilities of the relevant parties. The ``Format and Content 
Guide for Site Safeguards and Security Plans'' has been revised to 
incorporate lessons learned and correct identified weaknesses in the 
SSSP process.
    Additionally, the SSSP guide continues to be revised relative to 
the implementation of the revised Departmental SSSP process at 
additional DOE and NNSA facilities. The vulnerability assessment 
processes have been modified to more clearly define and support the 
assertions made regarding facility safeguards and security protection 
postures. Revised vulnerability assessment tools are being developed 
which more easily address emerging threats and provide detailed 
analysis of current safeguards and security operations and programs. 
The level of participation by all interested parties in the SSSP and 
vulnerability assessment processes has increased to ensure accurate and 
precise depiction of facilities' safeguard and security postures and 
relative risk levels. The internal SO SSSP procedures are being 
strengthened to clearly delineate roles and responsibilities through 
each phase of the SSSP process.


    51. Senator Akaka. During the course of the above inspection, the 
IG reviewed allegations of a systematic ``dumbing'' down of the SSSP 
process. The IG found no evidence supporting this allegation, but 
stated that ``strong management involvement will be needed to assure 
that the new process achieves its potential.'' In June 1999, the 
Secretary assigned this role to the Director, Office of Security and 
Emergency Operations.
    Has this role been re-evaluated in light of the establishment of 
the National Nuclear Security Administration?
    Secretary Abraham. The role of the National Nuclear Security 
Administration (NNSA) is identified in the Fiscal Year 2000 Defense 
Authorization Act, which places the responsibility for facilities in 
the NNSA under the Administrator for the NNSA. As part of the current 
review of the NNSA organization, the role of NNSA in the SSSP process 
for their facilities is being defined. These new roles will be 
identified in upcoming documentation to be issued within the NNSA and 
the Department. The NNSA, in conjunction with the Office of Security 
and Emergency Operations (SO), is reviewing the current SSSP process to 
identify any changes which will improve the process and ensure a 
consistent cost-effective approach to security for the NNSA facilities.

                        security survey ratings
    52. Senator Akaka. On May 30, 2000, the Inspector General for the 
Department of Energy issued a report entitled, ``Inspection of 
Allegations Relating to the Albuquerque Operations Office Security 
Survey Process and the Security Operations' Self-Assessments at Los 
Alamos National Laboratory.'' In the report, the IG found Albuquerque 
management changed the ratings of annual security surveys of Los Alamos 
National Laboratory in 1998 and 1999 without providing a documented 
rationale, and that certain security survey work papers were destroyed 
contrary to policy. Albuquerque agreed to the findings and 
recommendations, stated that corrective action will be taken.
    Please describe specific steps taken in this area, including policy 
changes and any evaluations of effectiveness.
    Secretary Abraham. In response to the recommendations of the 
Inspector General (IG), the Albuquerque Operations Office initiated a 
new, documented process requiring a signed form for recording any 
changes to ratings determined by the survey team leader, the review 
board, or in the final report, as well as the rationale for these 
changes. Security survey guidelines have also been updated to improve 
recordkeeping organization and to clarify the required retention 
period. Following the Inspector General's report, a Headquarters Team 
conducted a review of safeguards and security self assessments at the 
nuclear defense laboratories to determine whether current self 
assessment programs were fully implemented and represent actual 
security conditions. One of the conclusions from this review was that 
survey findings must be well-documented and show whether and how 
minority opinions are included.

               export license for foreign national visits
    53. Senator Akaka. On March 23, 2000, the Inspector General for the 
Department of Energy issued a report entitled, ``Inspection of the 
Department of Energy's Export License Process for Foreign National 
Visits and Assignments.'' (DOE/IG-0465). In the report, the IG found 
that the Department lacked clear guidance from the Commerce Department 
regarding when a visit or assignment would be deemed an export 
requiring an export license. The IG further found that a lack of 
clarity with roles, responsibilities and accountability with DOE 
personnel. According to the IG, because of weaknesses in this program 
the Department was not able to report the precise number of foreign 
nationals visiting the Department's laboratories.
    Please describe specific steps taken in this area, in light of the 
establishment of the National Nuclear Security Administration (NNSA).
    Secretary Abraham. Steps taken since March 2000 to improve 
communication and coordination include the following:
    To facilitate timely and effective communications between the DOE 
complex and Department of Commerce (DOC) staff, as well as to 
strengthen DOE/NNSA's export control compliance programs, DOC and ODE/
NNSA implemented a 1-year program in which selected laboratory 
employees would spend successive 3-week detail assignments in the 
Bureau of Export Administration in a newly instituted training program. 
The program started in January 2001.
    In early 2000, NNSA established a network of informal liaisons at 
many of the laboratories and DOE field offices. This network provides a 
vehicle for communicating export control and nonproliferation policy 
guidance. NNSA holds scheduled seminars on nonproliferation policy and 
export control, and is continually enhancing content to reflect current 
policy and issues. Hosts of foreign visitors and assignees are 
encouraged to attend.
    As relates to policy, NNSA sent a letter to the DOC on September 
15, 2000, which elucidated the NNSA joint understanding on deemed 
export guidance to the National Laboratories. This was based on the DOE 
publishing on April 20, 2000, guidance on deemed exports.
    With respect to accounting for the presence of foreign nationals 
visiting the Department's laboratories, the Office of Foreign Visits 
and Assignments implemented a new Web-based tracking and reporting 
system for DOE-wide application on July 1, 2000. This system, Foreign 
Access Central Tracking System (FACTS), receives requests for foreign 
national access approval, routes requests to all security and subject 
matter reviewers including counterintelligence and export control 
assurance,

and documents the accomplishment of reviews and granting of approvals. 
This system, and the policies and procedures that govern its 
operations, apply to all DOE and NNSA organizations including naval 
reactors, national laboratories, and other contractor operated sites 
and facilities.

    [Whereupon, at 11:29 a.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
